<html>
<title> - AUTO SAFETY: EXISTING MANDATES AND EMERGING ISSUES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
           AUTO SAFETY: EXISTING MANDATES AND EMERGING ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2009

                               __________

                           Serial No. 111-40


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
72-888                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f687f604f6c7a7c7b676a637f216c606221">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JAN SCHAKOWSKY, Illinois             SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah                   PARKER GRIFFITH, Alabama
G.K. BUTTERFIELD, North Carolina     ROBERT E. LATTA, Ohio
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA CHRISTENSEN, Virgin Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)
        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JAN SCHAKOWSKY, Illinois             CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN SARBANES, Maryland              RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   DENNIS HASTERT, Illinois
FRANK PALLONE, New Jersey            ED WHITFIELD, Kentucky
BART GORDON, Tennessee               CHARLES W. ``CHIP'' PICKERING, 
BART STUPAK, Michigan                    Mississippi
GENE GREEN, Texas                    GEORGE RADANOVICH, California
CHARLES A. GONZALEZ, Texas           JOSEPH R. PITTS, Pennsylvania
ANTHONY D. WEINER, New York          MARY BONO MACK, California
JIM MATHESON, Utah                   LEE TERRY, Nebraska
G.K. BUTTERFIELD, North Carolina     MIKE ROGERS, Michigan
JOHN BARROW, Georgia                 SUE WILKINS MYRICK, North Carolina
DORIS O. MATSUI, California          MICHAEL C. BURGESS, Texas
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex 
    officio)
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. George Radanovich, a Representative in Congress from the 
  State of California, prepared statement........................     2
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................   149
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, prepared statement....................................   150

                               Witnesses

Ronald L. Medford, Acting Deputy Administrator, National Highway 
  Traffic Safety Administration..................................     5
    Prepared statement...........................................     7
Kathryn O'Leary Higgins, Board Member, National Transportation 
  Safety Board...................................................    12
    Prepared statement...........................................    14
Robert Strassburger, Vice President, Vehicle Safety & 
  Harmonization, The Alliance of Automobile Manufacturers........    50
    Prepared statement...........................................    52
Stephen L. Oesch, Senior Vice President, Insurance Institute for 
  Highway and Auto Safety........................................    60
    Prepared statement...........................................    62
Joan Claybrook, Board Member, Advocates for Highway and Auto 
  Safety.........................................................    69
    Prepared statement...........................................    72
Janette Fennell, President, Kids and Cars........................    94
    Prepared statement...........................................    97
Jeffrey W. Runge, M.D., President, Biologue, Inc.................   128
    Prepared statement...........................................   131

                           Submitted Material

Statement, Mothers Against Drunk Driving, submitted by Mr. Rush..   151
Statement, Public Citizen, submitted by Mr. Rush.................   154


           AUTO SAFETY: EXISTING MANDATES AND EMERGING ISSUES

                              ----------                              


                          MONDAY, MAY 18, 2009

              House of Representatives,    
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2322, Rayburn House Office Building, Hon. Bobby L. Rush 
[chairman of the subcommittee] presiding.
    Present: Representatives Rush, Sarbanes, Barrow, Braley, 
and Radanovich.
    Staff Present: Anna Laitin, Professional Staff Member; 
Christian Tanetsu Fjeld, Counsel; Michelle Ash, Counsel; 
Valerie Baron, Legislative Clerk; Brian McCullough, Minority 
Senior Professional Staff Member; and Chad Grant, Minority 
Policy Analyst.

            OPENING STATEMENT OF HON. BOBBY L. RUSH

    Mr. Rush. The subcommittee will come to order. Today's 
hearing is on ``Auto Safety: Current Mandates and Emerging 
Issues.'' And the Chair recognizes himself for 5 minutes for 
the purposes of opening statements.
    I want to let you know that there is a hearing or openings 
statements on the markup of the energy bill that occurs 
downstairs and the majority of our subcommittee members are 
there waiting for the opening statements. So they will be 
coming in and out of this hearing in that they are preoccupied 
with the opening statements.
    Today the subcommittee will conduct its first oversight 
hearing of NHTSA in the 111th Congress. The intent of today's 
hearing is fairly simple, and I want to know if NHTSA is taking 
the necessary proactive steps to ensure that American consumers 
are as safe as they can reasonably be in their personal, 
commercial, and their recreational vehicles. Whether it is a 
parent driving his or her child or children to school or a 
motor coach full of children traveling to the museum or simply 
driving to work, Americans every day put their faith in the 
safety of their cars and trucks that they drive. It is of 
absolute importance that manufacturers and government 
regulators meet this very basic expectation.
    With this overarching goal in mind, there are several 
issues I want to explore in this hearing that specifically 
implicate safety.
    First, is NHTSA issuing safety rules that are relevant and 
timely? Is the agency sufficiently heeding the recommendations 
of the National Transportation Safety Board and responding to 
findings that point to dangerous problems? In this regard I am 
very interested to know how NHTSA has responded to 
recommendations from NHTSA on issues surrounding tire pressure 
monitoring, retread standards, and electronic on-board 
recordings for commercial vehicles, as well as the overall 
safety of motor coach vehicles and school buses.
    Second, is NHTSA sufficiently implementing congressional 
intent? In 2005, Congress mandated that NHTSA establish 
standards for releasing rollover crashes and mitigating the 
resulting damages. Congress also called on NHTSA to study, 
``dynamic testing'' that simulates the dynamic of a real 
rollover crash. I want to know where the agency is in meeting 
this congressional mandate.
    Third, I would like to know what steps NHTSA is taking to 
meet the unique challenges of safety for hybrid and alternative 
fuel vehicles which are quickly becoming a segment of the cars 
driven by Americans. If we want to promote these new vehicles 
to American consumers in our efforts to further energy 
independence and combat global climate change, we have to also 
ensure Americans that they are as safe as they possibly can be 
and ensure their long-term commercial viability.
    Fourth, I am interested in knowing what steps NHTSA is 
taking to ensure child safety in vehicles. The Chicago Tribune 
recently ran a story citing the poor performance of child car 
seats and the Secretary of Transportation, my friend and former 
colleague from Illinois, Secretary LaHood, has ordered a 
comprehensive review of the car safety program. Moreover, I 
want to know what initiatives, if any, NHTSA is taking with 
regard to recent reminders of safety features that notify the 
driver that a child is present in the back seat of a car.
    Lastly, I want to know if NHTSA has the sufficient 
resources to meet the unique challenges of the 21st century and 
the challenges occurring in American transportation.
    I take this subcommittee's jurisdiction over NHTSA and 
vehicle safety very, very seriously. I very much believe it is 
possible, indeed necessary to promote energy independence, 
despite global climate change, and ensure safety and nurture 
the long-term success of American made cars and trucks. This 
subcommittee has an important role to play in furthering these 
goals. They are not mutually exclusive.
    I want to thank the witnesses appearing before us today. I 
think I speak for all the members on this subcommittee that we 
look forward to working with the Obama administration, Acting 
Deputy Administrator Medford, and the full-time future 
Administrator of NHTSA, whoever they may be, on matters 
affecting all the areas of vehicle safety.
    With that, I yield back the balance of my time, and I 
recognize for the purposes of an opening statement for 5 
minutes the ranking member, Mr. Radanovich.

          OPENING STATEMENT OF HON. GEORGE RADANOVICH

    Mr. Radanovich. Thank you, Mr. Chairman. I appreciate you 
calling this hearing today to discuss the important subject of 
National Highway Traffic Safety Administration and the mandates 
Congress has imposed on them. I understand the importance of 
holding this hearing, but I do hope that future hearings will 
be automatically rescheduled when full committee business is 
scheduled to occur at the same time to ensure greater member 
participation.
    Everybody wants their roads to be safer. Too many lives are 
lost each year due to accidents. Fortunately, the changes in 
driving behavior and the addition of new technologies continue 
to make great improvements in reducing the fatalities on our 
roads. Last year we saw a 9 percent increase--excuse me, a 9 
percent decrease in vehicle crash fatalities and overall the 
fewest fatalities on our roads since 1961.
    Additionally, the fatality rate has been steadily dropping 
each year, and was the lowest on record in 2008 at 1.28 
fatalities per 100 million vehicle miles traveled.
    Clearly safety continues to improve under the combined 
efforts of NHTSA and the auto manufacturers. Safety initiatives 
such as the campaign to increase seat belt usage, combined with 
adoption of technologies and improved crash avoidance such as 
electronic stability control, have kept fatalities much lower 
than they would be otherwise.
    With the population growth and the increased miles driven 
each year, the number of fatalities without these advances 
would likely be closer to 100,000 deaths annually if the 
fatality rates were the same as during the 1970s. And while 
these improvements should be heralded, it doesn't change the 
fact that more lives could easily be saved.
    Greater use of seat belts, which costs nothing, would save 
thousands more lives. Additionally, alcohol was a factor in 
approximately one-third of all fatalities. We have seen great 
improvements over the past two decades in reducing the number 
of impaired drivers on the road. Further improvements are 
needed.
    These behavioral changes are the most effective changes to 
adopt at virtually no cost. Technological improvements, 
however, take time and research to develop and they cost money. 
As we will hear from the second panel, the auto industry spent 
nearly $800 billion on research and development in 2007, and 
those costs have to be recouped. Although that means the 
consumers pay more for the average car, it also means that they 
are usually getting a better, more reliable, and, most 
importantly, a safer car than they would have purchased just a 
decade ago.
    Consumer demand plays an important part of the decision 
process through which technologies are adopted. If consumers 
won't pay extra for these advances, they may opt for a less 
equipped vehicle and forego a new purchase entirely. In these 
uncertain economic times with rising unemployment, many 
consumers are cutting back considerably on their discretionary 
purchases, and as we all know, the pullback in consumer 
spending has hit the auto industry very hard.
    New auto sales were cut nearly in half last year from their 
peak and are not improving this year. Without a definitive 
improvement in their financial future, it is not clear how the 
economic downturn will affect their ability to develop further 
safety improvements.
    Congress has mandated many things, in some instances 
placing strict deadlines for NHTSA to issue rulemakings for the 
industry to adopt. NHTSA, who is the Federal agency with the 
safety expertise, has done an excellent job to improve safety. 
It is a mistake to supplant NHTSA's expertise and priorities 
with proposals that restrict or divert resources from the 
priorities that save the most lives.
    NHTSA should continue their work and prioritize the most 
effective programs in rulemaking that will serve public health 
and safety best. If Congress disagrees with those priorities, 
we he have the ability to conduct appropriate oversight. What 
Congress and this committee should focus on is how the changes 
we are considering for environmental policy affect auto safety 
and the affordability of our cars.
    We do not yet know, for example, how the new fuel economy 
standards will affect future affordability and safety. The 
Insurance Institute for Highway Safety issued a report last 
month that makes clear one disputable fact, that car size and 
weight matters when it comes to safety. Their research bears 
out the fact that the fatality rate is higher for small and 
mini size cars.
    We all want safer and more fuel efficient cars. If 
technology can be used to improve the fuel economy without 
sacrificing the safety of the vehicle, that is a great outcome. 
The question is how much will it cost, and the answer to that 
question will determine many of the choices consumers and auto 
manufacturers make and will also affect auto safety.
    I want to thank all the witnesses here today, and I look 
forward to discussing these important issues. Thank you, Mr. 
Chairman.
    Mr. Rush. The Chair thanks the ranking member, and the 
Chair wants the ranking member to be assured if it was possible 
to fight off the aggressive activities of other committees in 
the Congress as it relates to our jurisdiction over this 
matter, then the chairman certainly would have rescheduled this 
meeting. But in light of the fact that there are some folks who 
want our jurisdiction over this matter, I thought it would 
behoove us to have this hearing and to have it promptly, and 
that is the reason why we scheduled this hearing at the same 
time as the opening statements on the full committee.
    The Chair now wants to recognize our two expert witnesses. 
They are a fine group of people. They come from the National 
Highway Traffic Safety Administration and also from the 
National Transportation Safety Board. Representing the National 
Highway Safety Administration is the Acting Deputy 
Administrator, Mr. Ronald L. Medford. Welcome, Mr. Medford, to 
this committee.
    And next to Mr. Medford, representing the National 
Transportation Safety Board, is Ms. Kathryn O'Leary Higgins. 
She is a board member. Ms. Higgins, welcome to this 
subcommittee.
    We would like you to be sworn in now. This is a new 
practice of the subcommittee.
    [Witnesses sworn.]
    Mr. Rush. Please let the record reflect that all witnessed 
have answered in the affirmative.
    Mr. Medford, I am going to recognize you first, and you 
have 5 minutes for the purpose of opening statements.

 STATEMENTS OF RONALD L. MEDFORD, ACTING DEPUTY ADMINISTRATOR, 
  NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION; AND KATHRYN 
 O'LEARY HIGGINS, BOARD MEMBER, NATIONAL TRANSPORTATION SAFETY 
                             BOARD

                 STATEMENT OF RONALD L. MEDFORD

    Mr. Medford. Thank you. Good afternoon, Chairman Rush and 
Ranking Member Radanovich. My name is Ron Medford. I am the 
Acting Deputy Administrator of the National Highway Traffic 
Safety Administration. I appreciate the opportunity to appear 
before the subcommittee today to discuss the important issues--
--
    Mr. Rush. Can you pull your mic closer?
    Mr. Medford. --of improving vehicle safety--is that better?
    The subject of this hearing is one of the critical missions 
of our agency. It is one of the most important safety issues 
confronting our country today. More young Americans die from 
motor vehicle crashes each year than die from any disease, 
infection, or crime.
    We are encouraged by the positive strides we continue to 
make. Our early estimate for 2008 is that 37,313 traffic deaths 
occurred. If this projection is realized, it will represent a 
9.1 percent decrease from 2007 and the lowest number of traffic 
deaths in the United States since 1961 and the lowest fatality 
rate ever recorded in our history.
    Recent regulatory actions that take effect in the next few 
model years will help us continue the reduction of traffic 
fatalities. NHTSA estimates that the electronic stability 
control regulation can save nearly 10,000 lives a year and our 
upgraded side impact protection standard would save another 
1,000 lives a year.
    In addition, our 5-star government rating program, also 
known as the new car assessment program, allows consumers to 
easily compare the safety performance of different vehicles and 
has served as a model for similar programs around the world. 
We've announced major enhancement to this program beginning in 
model year 2011, with more stringent injury criteria and the 
addition of advanced technologies for crash prevention.
    Like any organization, NHTSA must make difficult choices in 
selecting projects. We undertake those projects that deliver 
the greatest safety benefits for the American public. We begin 
by analyzing our safety data, which is recognized 
internationally for its depth and its quality. These analyses 
show us and allow us to focus on and probe deeply into areas of 
highest risk.
    While crash worthiness continues to be an important part of 
the vehicle safety program, we also recognize that advancements 
in technologies that can prevent crashes or mitigate crash 
severity are becoming increasingly an important part of our 
program. We believe that advanced technologies can detect and 
compensate for drivers' errors such as inattention, drowsiness, 
or driver misjudgment.
    To address nearly 13,000 alcohol impaired driving 
fatalities in 2007, we are conducting joint research with the 
auto industry to develop technologies that have the potential 
to detect and prevent an impaired driver from operating a 
vehicle without being intrusive to the sober driver.
    While the size of potential safety benefits is our first 
consideration, it is not the only criterion we use when 
selecting vehicle safety projects. Another consideration is the 
introduction of technologies that are likely to appear in 
growing numbers, such as alternative energy vehicles, which may 
present safety risks that are not yet addressed by current 
standards.
    Another criterion we consider is ensuring the protection of 
high occupancy vehicles. NHTSA is now focused on motor coach 
safety as a priority. We published a motor coach safety plan in 
2007, August, that identified four priority areas: Seat belts 
for occupants, increased roof strength, emergency egress, and 
fire safety. We expect to issue a proposal to require seatbelts 
on motor coaches later this year.
    The final criterion we used in prioritizing vehicle safety 
projects is the protection of children and other vulnerable 
populations. Under the leadership of Secretary LaHood, the 
agency has recently conducted a top-to-bottom review of our 
child restraint standard. Based on that review, we expedited a 
project to afford better side impact crash protection to 
children.
    We also continue our focus on school bus safety. In 2008, 
we issued a new rule that will further raise the bar on 
protection of our children when they are traveling to and from 
school. We believe the agency has developed a systematic way to 
evaluate and compare the potential safety gains from the 
projects we undertake. We strive to ensure our choices are 
based on sound data and science.
    Now I would like to turn briefly to fuel economy standards, 
as they are part of the Department's efforts to achieve vital 
national goals relating to energy and the environment.
    In March of this year, in accordance with the direction of 
President Obama, NHTSA issued fuel economy standards for 
passenger cars and light trucks for model years 2011. We have 
now begun work, in cooperation with the Environmental 
Protection Agency, to develop fuel economy and greenhouse gas 
standards respectively that would ensure that each agency is 
carrying out its statutory responsibilities in a coordinated 
fashion. We expect to issue fuel economy standards for model 
years 2012 through 2016 by the end of March 2010.
    Thank you for your consideration and for the subcommittee's 
leadership in providing vehicle and traffic safety. I would be 
pleased to answer any questions that you have.
    [The prepared statement of Mr. Medford follows:]

    [GRAPHIC] [TIFF OMITTED] T2888A.001
    
    [GRAPHIC] [TIFF OMITTED] T2888A.002
    
    [GRAPHIC] [TIFF OMITTED] T2888A.003
    
    [GRAPHIC] [TIFF OMITTED] T2888A.004
    
    [GRAPHIC] [TIFF OMITTED] T2888A.005
    
    Mr. Rush. The chairman thanks the gentleman.
    The Chair now recognizes Mrs. Higgins. Mrs. Higgins, you 
are recognized for 5 minutes for the purposes of opening 
statements.

              STATEMENT OF KATHRYN O'LEARY HIGGINS

    Ms. Higgins. Thank you, Mr. Chairman and Mr. Radanovich.
    I'm Kitty Higgins, a board member with the National 
Transportation Safety Board, and we appreciate you asking the 
Board to testify today.
    The Safety Board investigates accidents, all modes of 
transportation, to determine the probable cause and make 
recommendations to prevent similar accidents from happening 
again.
    We are pleased to be able to talk today about NHTSA's 
reauthorization.
    I've been asked to focus my comments on motor coach safety 
and the critical role that NHTSA must play in that arena. But I 
also want to point out that the Federal Motor Carrier Safety 
Administration has an equally important role in motor coach 
operations and oversight, and we have made other 
recommendations to improve motor coach operations. That's in my 
longer testimony.
    While NHTSA has made progress in many of the Board's 
recommendations, that progress has been very slow. In 1999, 10 
years ago, we issued a special report on bus crash worthiness. 
In 2000, we added recommendations from that report to our most 
wanted list. Since that report we have completed investigations 
of additional 33 accidents with 255 ejections, over a thousand 
injuries, and 123 fatalities.
    We welcome and applaud Secretary LaHood's call for a full 
departmental review of motor coach safety. And our Acting 
Chairman Mark Rosenker will be meeting with the Secretary in 
just a few days to talk to him about our concerns just to 
improve safety for motor coaches.
    While motor coach accidents are infrequent, when they occur 
there are a substantial number of people involved. They are all 
traveling in a single vehicle. Those travelers have often 
students, senior citizens, and tourists who place their safety 
in the hands of a professional motor coach operator. Inherent 
in that relationship is an expectation that our motor coaches 
will meet the highest level of safety.
    For decades the Safety Board has been concerned with motor 
coach occupant protection and the fatalities and injuries 
caused when passengers are thrown from their seats or ejected. 
We note that the Federal motor vehicle safety standards contain 
22 crash worthiness standards, yet motor coaches are presently 
exempt from most of them. For example, Federal regulations do 
not require that motor coaches be equipped with any occupant 
protection system. Only the driver has a seatbelt. The Board 
has frankly grown impatient as we continue to investigate 
accidents where these ejections occur; such as a couple of 
years ago the 12 ejections and 7 fatalities from the Bluffton 
University accident in Georgia, in Atlanta, and the 50 
ejections and 9 fatalities in the 2008 accident in Mexican Hat, 
Utah.
    We have asked and recommended to NHTSA that they develop 
standards for a motor coach occupants protection system that 
protects passengers in all crash scenarios. We have also asked 
them to revise window glazing requirements to prevent occupant 
ejections, but also allow for passengers to get out of the 
motor coach.
    We have also asked them to make roofs on motor coaches much 
stronger. These improvements would go a long way in protecting 
passengers during a crash by keeping them in their seats and 
inside the motor coach and providing as well a survivable 
space. But 10 years after we first made these recommendations, 
no changes have been made in the design of motor coaches.
    We are also concerned about motor coach fires. In 2005, 23 
elderly passengers perished in a tragic motor coach fire near 
Wilmer, Texas. As a result of that accident the Board made 
recommendations asking NHTSA to require enhanced fire 
protection fuel systems and require the use of fire hardened 
materials in motor coaches.
    We also asked that fire detection systems be included and 
we also asked that acceptable passenger egress times be 
established. We hope NHTSA will also complete actions on these 
recommendations.
    The science of motor coach investigations could be greatly 
improved if buses are equipped with event data recorders which 
can be used to collect data from crashes, such as acceleration, 
impact, brake use, signal use, and others. That information can 
be used to help us evaluate occupant protection issues in the 
course of the investigation.
    New technologies can also improve safety. We applaud 
NHTSA's progress in developing electronic stability control 
standards for cars and light trucks, but we also believe that 
NHTSA should develop and require installation of new 
technologies such as collision warning systems and adaptive 
cruise control for commercial vehicles. Each of these 
technologies holds great promise in reducing accidents, 
especially when drivers are distracted or operating in bad 
weather.
    In summary, the Safety Board believes that there are still 
many changes NHTSA could make to improve safety on our 
highways.
    Thank you, and I'd be happy to take any questions.
    [The prepared statement of Ms. Higgins follows:]

    [GRAPHIC] [TIFF OMITTED] T2888A.006
    
    [GRAPHIC] [TIFF OMITTED] T2888A.007
    
    [GRAPHIC] [TIFF OMITTED] T2888A.008
    
    [GRAPHIC] [TIFF OMITTED] T2888A.009
    
    [GRAPHIC] [TIFF OMITTED] T2888A.010
    
    [GRAPHIC] [TIFF OMITTED] T2888A.011
    
    [GRAPHIC] [TIFF OMITTED] T2888A.012
    
    [GRAPHIC] [TIFF OMITTED] T2888A.013
    
    [GRAPHIC] [TIFF OMITTED] T2888A.014
    
    [GRAPHIC] [TIFF OMITTED] T2888A.015
    
    [GRAPHIC] [TIFF OMITTED] T2888A.016
    
    [GRAPHIC] [TIFF OMITTED] T2888A.017
    
    [GRAPHIC] [TIFF OMITTED] T2888A.018
    
    [GRAPHIC] [TIFF OMITTED] T2888A.019
    
    [GRAPHIC] [TIFF OMITTED] T2888A.020
    
    [GRAPHIC] [TIFF OMITTED] T2888A.021
    
    [GRAPHIC] [TIFF OMITTED] T2888A.022
    
    [GRAPHIC] [TIFF OMITTED] T2888A.023
    
    [GRAPHIC] [TIFF OMITTED] T2888A.024
    
    [GRAPHIC] [TIFF OMITTED] T2888A.025
    
    [GRAPHIC] [TIFF OMITTED] T2888A.026
    
    [GRAPHIC] [TIFF OMITTED] T2888A.027
    
    [GRAPHIC] [TIFF OMITTED] T2888A.028
    
    [GRAPHIC] [TIFF OMITTED] T2888A.029
    
    [GRAPHIC] [TIFF OMITTED] T2888A.030
    
    [GRAPHIC] [TIFF OMITTED] T2888A.031
    
    [GRAPHIC] [TIFF OMITTED] T2888A.032
    
    [GRAPHIC] [TIFF OMITTED] T2888A.033
    
    Mr. Rush. The Chair thanks Mrs. Higgins and indeed, the 
Chair thanks both witnesses for their opening statement. The 
Chair recognizes himself now for 5 minutes for the purposes of 
asking questions of these witnesses.
    The relationship between Congress and NHTSA has evolved 
into a situation where Congress feels a need to set mandated 
timelines for NHTSA to issue safe standards that have otherwise 
been delayed or ignored. In that context I would like to 
explore motor coach safety as a possible example.
    In 1999, NHTSA made recommendations for improving motor 
coach safety--NTSB, I'm sorry--NTSB made recommendations for 
improving motor coach safety and suggested that NHTSA act 
within 2 years, but so far little has been done.
    Mr. Medford, in the 10 years since NHTSA first received 
these recommendations, numerous severe crashes have 
demonstrated the need for improved safety protection on these 
buses. Can you answer these questions: Why hasn't NHTSA taken 
action to issue rules in this area? Is it a matter of resources 
and priorities? Did NHTSA consider requesting additional 
funding to pursue motor coach safety standards?
    Mr. Medford. Thank you, Mr. Chairman. I think it's true 
that NHTSA was slow to act immediately following the 1999 
recommendation of NTSB. But I would point out that when we 
issued the August 2007 action plan for motor coaches we have 
been giving it a higher priority for us. We have active 
research in all four areas that identify--plus electronic 
stability control, which I didn't mention in my opening 
remarks. And we are now devoting significant resources and I 
think you can be assured that we are on it.
    I mentioned that we will be in a position later this year 
to initiate a proposal for seatbelts and the work that I 
mentioned for egress and fire protection and for roof strength 
will all be finished in 2010 with a decision about what 
regulatory steps should be taken as a result of what we learn.
    So I think we're in a very different place than we were 
earlier. I think you have my commitment and the Secretary's 
commitment. Secretary LaHood is very interested in motor coach 
safety. They are moving quickly now to finish the research 
that's underway, and I think we are devoting substantial 
efforts.
    Mr. Rush. Do you all have adequate resources to take care 
of the mission?
    Mr. Medford. Yes, sir, we do. We think we have the 
resources we need to carry out the mission of the agency. And 
like I mentioned in my opening remarks, we have to, like any 
organization, make decisions on where we put our priority 
attention and each year, and for a number of years we do the 
planning for what that should be. And I think clearly now motor 
coach is a priority for us.
    Mr. Rush. In the past NHTSA has argued against 
congressional mandates. If it takes more than 10 years for you 
to issue standards that have been recommended by another 
Federal agency, perhaps mandates are the only way to go. If 
Congress does not pass additional mandates, what's on NHTSA's 
agenda? Or let me put it another way, what will you be working 
on if congressional mandates did not take up your time?
    Mr. Medford. Thank you, Chairman Rush. Many of the mandates 
that were passed in the last safety bill legislation were 
actually projects that we had identified in our priority plan; 
they matched up pretty well. So the sort of four-stage 
rulemaking process that was identified for rollover, which is a 
very serious problem, were really already identified by NHTSA 
in its priority plan. So we think those matched up well with 
us, with where we're going. So we didn't see those as a major 
impediment other than perhaps some of the timelines and 
problems that can occur with priorities and projects as you are 
doing the research. But for the most part I think many of the 
mandates that were part of the last highway bill matched pretty 
well with the priorities that we had.
    Mr. Rush. We will work with you and we are willing to be 
very vigilant to ensure that NHTSA is able to do what the 
American people expect it to do. And I certainly would like for 
you and your agency to make sure that you keep a vigorous 
relationship going with this subcommittee and with this Chair.
    With that, the Chair sees his time has ended, and the Chair 
now recognizes the ranking member for 5 minutes for the 
purposes of asking questions of these witnesses.
    Mr. Radanovich. Thank you, Mr. Chairman, and, Mr. Medford, 
welcome to the subcommittee.
    I would like to--you went in slightly to some of the 
examples, if you could give me some examples of the advanced 
technologies that are now--that are on the horizon for car 
safety, and also maybe a discussion about how the current 
market situation for auto dealers and being able to sell these 
cars in the current marketplace, given the added cost for the 
research and the installation of the upgrades themselves, how 
that affects the price of cars and the burden that that might 
be on the manufacturers now in this current economic situation.
    Mr. Medford. I thank you, Congressman, for the question. 
Yes, of course we all recognize, I think, the difficult times 
that all car companies are facing today. And one of the reasons 
I emphasized in my remarks about you how important it is for us 
to choose carefully the work that we do is to ensure that the 
mandates that we give to the car companies or the regulations 
that we issue that require the installation of safety 
improvements. So we try very hard to get the biggest bang for 
the buck that we can.
    And so you will see in the regulations that we issue that 
we have good cost-benefits, cost effectiveness for safety, and 
we provide manufacturers a sufficient lead time and phase-in 
period so that it creates the least amount of interruption to 
their product redesign cycle as we can.
    So we are trying to be mindful of let's hurry up and 
protect the consumers while at the same time ensuring that we 
are doing this in a way that doesn't provide significant 
economic disruption.
    Mr. Radanovich. Thank you. NHTSA has issued the proposed 
rulemaking to strengthen car and light truck roof crush 
standards. Is the standard relative to motor coaches and as 
well and what might be the differences?
    Mr. Medford. We actually finalized the roof crush rule just 
at the end of April, and thank goodness for that. There is a 
difference in the test method that will be used to evaluate 
roof crush from motor coaches. We're currently looking at--
we've looked at the school bus roof crush standard and we're 
now looking at the European requirements for motor coaches. We 
haven't made a decision, but it will be a different method of 
test than for light vehicles.
    Mr. Radanovich. Why did NHTSA decide to use the sequential 
test on rooftops over what he is known as the dynamic test; can 
you explain that for me?
    Mr. Medford. Yes, there has been a lot of interest, which 
we share quite frankly, in the development of a dynamic 
rollover test. Such a task would allow the agency to evaluate 
at the same time a number of safety things in the vehicle; for 
example, the restraint system, the roof strength, the ejection 
mitigation, deterrence capabilities of a vehicle. But what we 
found and what we wrote in the final rule is at this point we 
don't have a dynamic test that's reproducible. So we use the 
test that is the test that's in current standards, but upgraded 
the requirements and for the first time required a 2-sided 
test.
    Mr. Radanovich. Thank you, Mr. Medford.
    Ms. Higgins, welcome to the subcommittee. I have a question 
regarding window retention and your advocacy of glazing as 
well. Are those two proposals compatible or are they in 
conflict?
    Ms. Higgins. My understanding is that glazing is--prevents 
the shattering and also--but we've asked that they look at the 
issue of glazing windows, but also make sure that it was a way 
to keep people inside. What we're concerned about in the issue 
of an occupant protection system is that it really is a system. 
We hear a lot of discussion about seatbelts, but in your 
previous discussion there, it is important to look at the 
strength of the roof, the way the windows are designed, and 
we're looking at recommended glazing and a seatbelt system as 
part of an overall protection system because what we found is 
that most of the injuries and fatalities come when people are 
thrown out of the bus. We are a little bit concerned that if 
you move on one without the other that we're going to maybe 
address part of the problem but not really address all of the 
problem.
    So that's why we talked about the three things together.
    Mr. Radanovich. OK. Does NTSB use your own research on 
technologies that you recommend, such as advanced glazing or--
--
    Ms. Higgins. We don't do our own research in that regard. 
We look at what is being done elsewhere.
    Mr. Radanovich. And which one, it is either occupant 
ejection or roof crush deaths, which is more relevant to 
occupant deaths in motor coach accidents? Is it the throwing 
out or----
    Ms. Higgins. I think its the throwing out. If you look at 
the Mexico Hat accident, which is one of the most frequent--it 
happened a year ago--the pictures are pretty dramatic. The roof 
just peels back like you're opening a tin can. With no 
seatbelts and no way to stay in the bus, they are literally--
the bus topples over and they are just thrown out. And the 
injuries and fatalities are really caused by that sort of blunt 
force trauma.
    Mr. Radanovich. All right. Thank you very much. I 
appreciate your responses.
    Mr. Rush. The gentleman yields back the time?
    Mr. Radanovich. I do.
    Mr. Rush. The Chair now recognizes the gentleman from Iowa, 
Mr. Braley, for 5 minutes.
    Mr. Braley. Thank you, Mr. Chairman, for holding this 
important hearing on what I believe is one of the most 
important issues we're going to be talking about in the surface 
transportation reauthorization bill.
    Mr. Medford, let me start with you. I was scheduled to 
testify at a NHTSA hearing on side saddle fuel tank standards, 
and that hearing was cancelled at the last minute because of a 
compromise that was reached between NHTSA and the auto makers 
involving a change of payments for consumer safety education as 
a result for having that hearing taken off the calendar.
    One of the concerns I have is that I'm very pleased that 
the agency recently retreated from its earlier position in the 
proposal that claimed that regulation is preempted, that 
preempts State tort law claims, and even though I applaud the 
agency for making that change, I'm a little curious as to what 
took the agency so long to make that change after the proposed 
rule was issued in 2005.
    Mr. Medford. The only opportunity there was for the agency 
to change its mind was through the final rule process, and so 
it was at that time that the agency changed its mind, just in 
this last month.
    Mr. Braley. Can you give us a commitment here today that 
the agency is going to continue to review and amend the agency 
statements that have been issued during the last 3 years in 
which the agency repeatedly stepped into the shoes of Congress 
and claimed that its safety rules preempted State law claims?
    Mr. Medford. I need to--I can commit to you that I'll go 
back and see if there are some cases in which we exercise that 
judgment, whether it should be reconsidered, and let you know 
what those are.
    Mr. Braley. You understand that under established Federal 
law only Congress has the ability to preempt State law?
    Mr. Medford. Yes, I do.
    Mr. Braley. And if any attempt is made by a Federal agency 
to intervene and preempt State law, it has to be at the express 
direction of Congress?
    Mr. Medford. I'm not a lawyer. So I don't know that I 
particularly understand all of the legal aspects, but I do 
understand that we don't preempt State law--tort law.
    Mr. Braley. Along the same line, in 2008 the agency issued 
a final rule regarding designated seating positions. Are you 
familiar with that final rule?
    Mr. Medford. I am.
    Mr. Braley. And this is a rule that car companies used to 
calculate the number of minimum seatbelts that could be 
included in a particular automobile, is that correct?
    Mr. Medford. Yes.
    Mr. Braley. Rather than simply including preamble language 
in that proposed rule, the agency went beyond that and included 
language in the text of the regulation stating that the rule 
preempts State tort law claims. Is the agency planning to issue 
a new regulation deleting that section of the regulation?
    Mr. Medford. We haven't discussed that. I think--I 
understand what you're saying and I would ask that you let us 
get back to you specifically on your request.
    Mr. Braley. I will be sure to follow up with you, and we 
well definitely be getting back to you.
    Mr. Medford. Yes, sir.
    Mr. Braley. Do you know why the agency felt it had the 
right to codify its feelings on preemption when Congress had 
already included a savings clause in NHTSA's organic statute to 
expressly preserve those claims?
    Mr. Medford. I don't know the details of those legal 
decisions.
    Mr. Braley. One of the questions I have for you, Ms. 
Higgins, deals with the question that asked earlier about motor 
coaches, and you identified a very horrific crash that led to 
observations about the mechanics of the rollover and what most 
likely precautions would be necessary to protect the occupants 
of the vehicle compartment. Do you remember responding to that 
question earlier?
    Ms. Higgins. Uh-huh. Yes.
    Mr. Braley. One of the most recent examples here of that is 
the 2007 accident involving the Bluffton University college 
baseball team which received a lot of publicity, and one of the 
concerns that I have is that under current Federal regulations 
common carrier, like the bus that was carrying that baseball 
team, is only required to carry a minimum insurance policy of 
$5 million, which has not been changed since its adoption in 
1985, and one thing we know is that if you adjust that for 
inflation that that value would be much greater today. And one 
of the things we also know is when someone who is responsible 
as a common carrier is not in a position to adequately pay for 
the costs associated with an accident like that we the 
taxpayers end up bearing the burden.
    So are there any plans underway right now to address that 
potential inequity.
    Ms. Higgins. You know, congressman, I was the board member 
who went to Atlanta at the time of that accident, so I'm very 
familiar with it. We did not--to my knowledge, we did not make 
recommendations in the area of insurance. I think that comes 
within--I guess it's within the Department of Transportation. I 
don't know whether that is NHTSA or----
    Mr. Medford. That's Motor Carriers.
    Ms. Higgins. Federal Motor Carriers.
    Mr. Braley. The little green book.
    Ms. Higgins. But we don't--we look at the sort of safety 
implications, why did the accident happen, but we don't get 
into the insurance issues, unfortunately.
    Mr. Braley. One of the things that we know is that there is 
often this problem of interoperatively between Federal 
agencies. Is this something that you're willing to raise in 
your conversations with peers who are involved in that aspect 
of protecting the public as a topic that might need revisiting?
    Ms. Higgins. You know, I'm happy to go back and look--one 
of the things I made a comment before you came, that when we 
look at motor coach safety issues we are concerned not only 
with what NHTSA is responsible for, which is the vehicle 
itself, but also what Federal Motor Carriers does in terms of 
driver training and driver performance and some of the rules 
and inspections and maintenance issues that come under their 
jurisdictions. I am not knowledgeable enough about the 
insurance issues, but I'm happy to go back and look to see what 
we meet do in that area.
    Mr. Braley. Thank you.
    Ms. Higgins. Sure.
    Mr. Braley. I yield back the balance of my time, Mr. 
Chairman.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes Mr. Barrow of Georgia for 5 minutes for questioning.
    Mr. Barrow. I thank the Chair. I'll waive questioning.
    Mr. Rush. The Chair will entertain--the Chair wants to 
engage in a second round of, say, no more than 2 minutes for 
additional questions.
    Mrs. Higgins, can you address the level of frustration that 
you as a Federal agency might have with another Federal agency, 
in this instance the National Traffic Safety Board and NHTSA, 
when you make recommendations for rulemaking and it takes them 
10 years or so? Are you satisfied with that pattern of 
performance in terms of promptness?
    Ms. Higgins. No.
    Mr. Rush. Would you please----
    Ms. Higgins. Well, I think, you know--I understand from my 
colleagues that Mr. Medford is one of the reasons that there's 
been a change in terms of NHTSA's attention on these issues. So 
I think he personally deserves some credit for what's happened 
since 2007. Unfortunately, we're still 10 years out from our 
recommendations being--that we made in 1999 and we don't have 
any changes that would benefit the public.
    Now we may get some of those changes later this year, but I 
just think that's unacceptable. I mean we asked for action in 2 
years. We didn't get it. Now maybe that deadline was 
unrealistic, but here we are 10 years later and we still don't 
have change. Hopefully we will get some. I think the 
Secretary's action is going to produce that. But I think the 
public expects more from all of us. I think when people buy a 
ticket on a motor coach, whether you are a senior citizen or a 
church group or a school group, you assume--and when it has a 
DOT number on the side of it, I think the public expects and 
has a right to expect they are boarding an operation that's 
safe. And what we have learned unfortunately through many of 
the accidents we've investigated is that that's not always the 
case, that the vehicles can be much safer than they are and the 
operators and drivers themselves can do things to improve the 
safety of the operation.
    Mr. Rush. Are there any other particular concerns that you 
may have regarding other issues that you'd like to----
    Ms. Higgins. I don't think we have enough time.
    Mr. Rush. We don't have enough time, oK. All right. Well, 
maybe you can communicate with us so that we can also be aware 
of some of the issues that----
    Ms. Higgins. I would say, Mr. Chairman, on the safety part, 
we publish every year our most wanted list. And we've made 
over--almost 13,000 recommendations for all modes of 
transportation. And we tried to distill down to the critical 
few that we think are most important to improve public safety. 
In the areas of motor coaches we have talked about those today. 
It is the windows, it's the roof strength and the occupant 
protection system. We think that that will go along. We also 
have issues--we've talked about data recorders, because we want 
better information in terms of helping us understand what 
happened in an accident, like we have in airplanes. We don't 
have black boxes now on motor coaches or on other commercial 
vehicles, and we think that has obviously been enormously 
helpful in not only telling us what happened in an airplane 
crash but also helping to prevent accidents. Operators have 
used that information to study what goes wrong.
    We also think there are issues related to drivers, medical 
issues. I realize that's not a NHTSA responsibility, but it 
does come under the jurisdiction of this committee. So we are 
happy to work with your staff and highlight this. But I would 
point, I guess, the committee in the direction of our most 
wanted list, to say these are the recommendations out of all of 
the issues where we think the most benefit would come to the 
public if those changes were adopted.
    Mr. Rush. Thank you very much. The Chair now recognizes the 
ranking member for 2 minutes for the purposes of questioning 
the witnesses.
    Mr. Radanovich. Thank you, Mr. Chairman. Mr. Medford, can 
you give me an idea what safety and fuel efficiency 
technologies hold out the best promise to achieve safety and 
fuel conservation goals?
    Mr. Medford. There's a number of them in the area of 
advanced technologies where there's a lot of work going on with 
hybrid vehicles, electric vehicles. Those are sort of at the 
extreme. And I think short of that there's a lot of turbo down-
charging that's going on now so that we will continue to have 
vehicles that have power but have reduced fuel consumption. 
There is just a wide array of advanced fuel economy 
technologies that are being deployed to data, you know, 
advanced transmission systems to a variety of different 
products, including diesel engines.
    Mr. Radanovich. Can you tell me, I've heard of a hydrogen 
cell technology that couples to an engine and runs off the 
battery or the----
    Mr. Medford. For an electric vehicle, yes.
    Mr. Radanovich. Does that have a lot of problems?
    Mr. Medford. We think it does, but currently the problem is 
generating the hydrogen, which burns hydrocarbons, which means 
it really doesn't address the need to address CO2 emissions. So 
I think people believe and I believe that hydrogen fuel cell 
vehicles hold great promise in terms of their carbon footprint, 
but the question is where will we get the hydrogen so we don't 
actually burn fossil fuels to generate it. So I think that's an 
issue, and the infrastructure issues are there. I don't see it 
as a very near-term solution to the----
    Mr. Radanovich. Doesn't it dramatically reduce the amount 
of fossil fuel required?
    Mr. Medford. You mean the lifecycle cost?
    Mr. Radanovich. Yes.
    Mr. Medford. Not really, because the fuel itself requires 
at the moment--the way that most hydrogen is generated requires 
the burning of fossil fuel or the use of fossil fuel. There are 
activities underway to try to find alternative fuels, or 
renewable fuel sources for hydrogen generation. So I think 
people are more aligned currently with electric vehicles as a 
potential intermediate activity--source of renewable fuels.
    Mr. Radanovich. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Rush. The Chair thanks the ranking member. This 
concludes this portion of the testimony of Panel No. I. I 
certainly want to again thank you so much and applaud you for 
your fine work, and thank you for taking the time out from your 
busy schedule to share with us your important information and 
insight, and I certainly just want to say that we want to 
continue to work very closely with both agencies as we proceed 
with the business of the subcommittee and the American people.
    Thank you very much.
    The Chair now calls to the witness table the second panel.
    Good afternoon. The Chair certainly welcomes you to the 
hearing of this subcommittee, and the Chair wants to express to 
you the sentiments of the subcommittee as it relates to being 
grateful for you taking time out from your very busy schedule 
to share with us and help lead us and guide us along the way as 
we undertake these very important matters that confront the 
American people.
    I want to introduce to those who are here the expert 
witnesses who appear before us. To my left is Mr. Robert 
Strassburger, who is the Vice President of the Alliance of 
Automobile Manufacturers.
    Next to Mr. Strassburger is Mr. Steven L. Oesch, who is the 
Senior Vice President of the Insurance Institute for Highway 
Auto Safety.
    Next to Mr. Oesch is Ms. Joan Claybrook, who is a board 
member of Advocates for Highway and Auto Safety.
    And next to Ms. Claybrook is Ms. Janet, Janette rather.
    Ms. Fennell. Janette.
    Mr. Rush. Janette Fennell. She is the President of Kids and 
Cars.
    And lastly we have with us Dr. Jeffrey W. Runge.
    Dr. Runge. It is Runge, but that's close enough.
    Mr. Rush. Dr. Runge is President of Biologue, Incorporated.
    Welcome to this subcommittee. It is a new practice of the 
subcommittee to swear in witnesses. I ask that you stand and 
raise your right hand.
    [Witnesses sworn.]
    Please let the record reflect all the witnesses have 
answered in the affirmative, and now we want to recognize the 
witnesses for 5 minutes or thereabouts for the purposes of 
providing opening comments to the subcommittee, beginning with 
Dr. Strassburger.

  STATEMENTS OF ROBERT STRASSBURGER, VICE PRESIDENT, VEHICLE 
      SAFETY & HARMONIZATION, THE ALLIANCE OF AUTOMOBILE 
    MANUFACTURERS; STEPHEN L. OESCH, SENIOR VICE PRESIDENT, 
     INSURANCE INSTITUTE FOR HIGHWAY AND AUTO SAFETY; JOAN 
CLAYBROOK, BOARD MEMBER, ADVOCATES FOR HIGHWAY AND AUTO SAFETY; 
   JANETTE FENNELL, PRESIDENT, KIDS AND CARS; AND JEFFREY W. 
             RUNGE, M.D., PRESIDENT, BIOLOGUE, INC.

                STATEMENT OF ROBERT STRASSBURGER

    Mr. Strassburger. Certainly, Mr. Chairman. And actually it 
is only ``Mr.'' I would like to take the title ``Dr.'', but 
that's not the case.
    Mr. Rush. Well, that's all right.
    Mr. Strassburger. Thank you for inviting me here. As we 
have heard already this afternoon, the Nation recorded its 
lowest traffic fatality rate last year. Some of its decline is 
the result of the reduction in vehicle miles traveled, or VMT, 
but not all of it.
    The reasons are simple. More people are using safety belts 
and that saves lives. But equally important are the safety 
technologies that auto makers have developed and designed and 
made available to consumers.
    Mr. Chairman, Alliance members are continuously reinvesting 
the automobile. We are working to make it safer, cleaner, and 
more efficient. Every day auto makers engage in high tech 
research and work to implement new technologies that provide 
significant safety benefits. We can achieve more, faster, if 
government and industry work together.
    One example, head protecting side curtain airbags. Seventy-
six percent of new vehicles have these available today. This is 
well in advance of any when such systems might be required. Yet 
no matter how many changes we make in research that we do, some 
will always continue to claim that vehicle safety will only be 
advanced if we regulate.
    As you work to reauthorize NHTSA, we urge you to resist 
calls to include mandating rulemakings and deadlines. Such 
mandates risk stifling innovation and may delay safety 
enhancements by forcing NHTSA and automakers to forego 
rulemaking and product decisions on higher priority items. 
There is a better way.
    The Alliance recommends that Congress require that NHTSA 
set the safety agenda by periodically issuing a motor vehicle 
safety improvement priority plan. Creating such a plan would 
ensure that critical safety problems are being addressed on a 
priority basis and in an effective way. A well-crafted plan 
would also ensure that we are all working in tandem to obtain 
our national goals.
    To establish a priority plan, NHTSA and safety researchers 
need robust data systems to assess current and future safety 
needs of adults and children. NASS therefore should be funded 
at a level sufficient to obtain its intended design size. NASS 
is the only reliable means of identifying traffic safety 
issues, establishing priorities, assisting in the design of 
future safety systems, and for evaluating the performance of 
existing systems.
    The Alliance believes that $40 million annually is needed.
    Finally, as a Nation, we will never fully realize the full 
benefits of vehicle safety technologies until we get people 
properly restrained and drunk drivers off the road.
    The single most effective way to reduce traffic fatalities 
and injuries immediately is to increase the use of safety belts 
and child safety seats. Primary enforcement of safety belt use 
laws results in higher usage rates. The time has come to treat 
safety belt use with the same seriousness as impaired driving 
in sanctioned States that have failed to adopt a primary law in 
the same way Congress required States to adopt .08 laws.
    Impaired driving remains our second most pervasive traffic 
safety problem. We have made progress over the last two 
decades. However, that progress has stalled. That is why the 
Alliance is working with MADD to eliminate drunk driving 
permanently.
    We support MADD's campaign to eliminate drunk driving and 
its request for $30 million per year to develop advanced in-
vehicle technologies that can unobtrusively detect a driver's 
blood alcohol concentration. Such technologies hold promise for 
keeping alcohol-impaired drivers off the road by preventing 
those drivers from operating a vehicle.
    In conclusion, reducing injuries and fatalities from auto 
crashes is a significant public health challenge. We appreciate 
the leadership shown by the members of this subcommittee to 
address these issues, and we share your goals. And we look 
forward continuing to work with you to make our roads the 
safest in the world.
    Mr. Chairman, members of the subcommittee, I would be happy 
to answer your questions.
    [The prepared statement of Mr. Strassburger follows:]

    [GRAPHIC] [TIFF OMITTED] T2888A.034
    
    [GRAPHIC] [TIFF OMITTED] T2888A.035
    
    [GRAPHIC] [TIFF OMITTED] T2888A.036
    
    [GRAPHIC] [TIFF OMITTED] T2888A.037
    
    [GRAPHIC] [TIFF OMITTED] T2888A.038
    
    [GRAPHIC] [TIFF OMITTED] T2888A.039
    
    [GRAPHIC] [TIFF OMITTED] T2888A.040
    
    [GRAPHIC] [TIFF OMITTED] T2888A.041
    
    Mr. Rush. The Chair thanks the witness.
    The Chair now recognizes Mr. Oesch for 5 minutes for the 
purposes of commentary and opening statements.

                 STATEMENT OF STEPHEN L. OESCH

    Mr. Oesch. Thank you very much, Mr. Chairman.
    The Insurance Institute for Highway Safety is a nonprofit 
research and communications organization that works to identify 
ways to reduce deaths and injuries on our Nation's highways. We 
are sponsored by automobile insurers here in the United States. 
We thank you for the opportunity to speak with you today about 
the emerging safety issues and what the National Highway 
Traffic Safety Administration can do to address those issues.
    Research is the key to determining sound and effective 
motor vehicle safety programs. With this in mind, NHTSA needs 
to expand its research on improving vehicle crashworthiness, 
evaluating the new crash avoidance features that are being 
introduced in cars, and developing technologies that Mr. 
Strassburger just referred to to reduce alcohol-impaired 
driving. The agency also should increase the scope of its 
detailed database on crashes.
    Finding ways to reduce crash deaths and injuries begins 
with collecting comprehensive data of good quality that 
identifies the driver, the vehicle, and environmental factors 
contributing to crashes and injuries.
    In 1979, NHTSA set up the National Accident Sampling 
System, NASS, to collect information on in-depth crash 
investigations. When that system was first set up, it was 
envisioned that there would be 75 locations throughout the 
United States where there would be in-depth crash 
investigations. Unfortunately, we currently only have 24 of 
those locations nationwide.
    The teams investigate about 5,000 crashes annually, but, 
unfortunately, this produces an inadequate sample. So, clearly, 
this is one--because the NASS data are so critical to our 
understanding of crash problems, NHTSA needs to increase the 
number of crashes being investigated.
    Particular attention should be placed on crashes involving 
injuries to children so we have a better idea of what is 
causing those injuries. NASS should also be expanded to include 
information on any crash-avoidance features in the vehicle so 
we will get a better idea of how well these technologies are 
working to prevent crashes. More work is needed to identify the 
types of crashes in which people are dying and to develop new 
test procedures to address injuries in those crashes.
    Even though motor vehicle designs have improved because of 
both Institute and NHTSA tests, these improvements have been 
offset because of increases in travel speeds, cell phone usage, 
and, until recently, increases in vehicle miles traveled. So, 
regretfully, about 29,000 people still die in passenger vehicle 
crashes each year.
    IHS research shows that serious injuries and death are 
still occurring in frontal cashes of vehicles that are good 
performers in our frontal offset crash test. People continue to 
also die in crashes involving center lane impacts, such as with 
a pole or with a tree, or in the so-called ``small 
offsetters,'' slight minor offset, where vehicles are striking 
and the structure is not lining up.
    We are currently conducting tests--or doing research to 
develop tests to address those problems, and we encourage NHTSA 
to look at other crash modes in which people are continuing to 
die and to develop tests to address each of those situations.
    In addition, we believe improvements of the existing 
Federal standard on rear underride guards for large trucks and 
trailers can reduce deaths and injuries in the passenger 
vehicles that strike the trucks and the trailers.
    Finally, IHS has been long involved in discussions about 
how to improve fuel economy while preserving occupant safety. 
The conflict is that small vehicles use less fuel but do a 
relatively poor job of protecting their occupants in crashes. 
Thus, fuel conservation policies that encourage vehicle 
downsizing have tended to conflict with motor vehicle safety 
policies, but they don't have to.
    Congress and the Energy Independence and Security Act 
required stricter fuel economy standards for 2011 through 2020 
model vehicles. The law authorizes NHTSA to use a size-based 
system for both cars and trucks, and the agency's new standard 
for 2011 models uses such a system. That approach reduces the 
incentives for automakers to downsize their lightest vehicles. 
The new system also forces manufacturers to use vehicle and 
engine technologies to improve fuel economy. The result will be 
to promote fuel economy without compromising safety.
    One consequence of recent Federal efforts to reduce carbon 
emissions may be to require vehicles to meet even more 
stringent fuel economy requirements. While reducing carbon 
emissions is an important societal goal, it needs to be 
accomplished so as to avoid any conflict with the size-indexed 
fuel economy approach NHTSA has adopted. This can be done if 
automakers change or are required to change how they use engine 
technology, which they have been using to increase horsepower.
    The performance capability of new cars has been increasing 
for 30 years. Between 1985 and 2005, average horsepower climbed 
64 percent. Research has shown that increases in vehicle 
horsepower are associated with a higher frequency of crashes. 
By using engine technology to increase fuel economy rather than 
to increase horsepower, manufacturers can offer mid-size and 
larger vehicles that achieve higher fuel economy and also 
potentially reduce the frequency of crashes and injuries.
    I want to thank the committee very much for its attention. 
I would be very pleased to answer any questions that you have.
    [The prepared statement of Mr. Oesch follows:]

    [GRAPHIC] [TIFF OMITTED] T2888A.042
    
    [GRAPHIC] [TIFF OMITTED] T2888A.043
    
    [GRAPHIC] [TIFF OMITTED] T2888A.044
    
    [GRAPHIC] [TIFF OMITTED] T2888A.045
    
    [GRAPHIC] [TIFF OMITTED] T2888A.046
    
    [GRAPHIC] [TIFF OMITTED] T2888A.047
    
    [GRAPHIC] [TIFF OMITTED] T2888A.048
    
    Mr. Rush. The chairman thanks the gentleman.
    Ms. Claybrook, you are recognized for 5 minutes.

                  STATEMENT OF JOAN CLAYBROOK

    Ms. Claybrook. Thank you so much, Mr. Chairman.
    I would like to mention I am also a former administrator of 
NHTSA under the Carter administration. I am still around, 
actually. I just wanted to mention that.
    Prevention is the word that has been used by the President 
in his efforts to help cut the cost of health care; and, among 
other things, improvements in safety on the highways can make a 
great contribution to that.
    In 2005, Congress, under the leadership of Senator Trent 
Lott and this committee, secured enactment of SAFETEA-LU , 
which was a law that instructed NHTSA to address the 10,500 
annual deaths from rollover. And this is very important, as the 
NHTSA acting administrator has testified. This was a priority 
of the agency, but not much had been finished or accomplished, 
and this law set deadlines for action by the agency.
    It included reducing rollover crashes and their severity, 
reducing full or partial ejection from these crashes, improving 
the roof crush to prevent lethal injuries to the head, and 
completion of rulemaking that was initiated by Dr. Runge when 
he was NHTSA administrator in the 2000 period on enhancing 
occupant protection in side-impact crashes.
    The side-impact standards we're quite pleased with; the 
others we're not. Because we believe that NHTSA, instead of 
issuing one rollover crash protection standard, has divided it 
up into roof crush and ejection, and we think it should have 
been one dynamic test for both. Plus it would have also, at the 
same time, tested safety belts. There is no existing motor 
vehicle safety standard for the performance of safety belts in 
rollover crashes; and, as a result, belts often reel out, and 
they do not protect you, and that leads to ejection and partial 
ejection.
    So this is a huge area of loss that we experience every 
year; and there are some 17,000 serious and disabling 
injuries--paraplegic, quadriplegic, brain damage, and so on--as 
well as the 10,500 deaths. And it's an area where we could 
really make huge improvements because rollover crashes take 
much longer to occur, which means that the forces of the crash 
are not as harmful, but when the vehicle containment is 
intruded--that is, by roof crush, or you're allowed to escape 
from it by ejection through window breakage and so on--that's 
when the injury occurs. So there's an opportunity here for 
dramatic savings in improved rollover protection.
    So, at this moment, the agency has issued the roof crush 
standard, which we are very upset about because it's a static 
test. It just pushes the top of the vehicle. And it also does 
not measure the structure of the vehicle, the dynamics of the 
roll of the vehicle. If the vehicle is square, it's going to 
roll in a much different way than if it's a rounded top and has 
much more impact on the occupants inside. And it also doesn't 
include a dynamic test for ejection with it. And so we're 
hoping that the committee will consider this and that the 
agency, when they issue the ejection rule, will also reconsider 
how they're testing these vehicles.
    The test for the roof really measures the B pillar, which 
is over your shoulders. And where you're really injured is at 
the A pillar, because what happens is you go forward in the 
crash. And the A pillar is not really tested in the static test 
very well. So we hope that that will be certainly reconsidered 
as we move forward.
    The agency's own rule made it clear that only 135 deaths 
would be prevented in the roof car standard. That's out of 
10,500. So they themselves have identified the inadequacy of 
this rule.
    There has a lot of development and ingenuity that's gone on 
in the private sector on testing for roof crush, and we hope 
that that will be added to it. Consumer groups, with a 
foundation grant, actually tested dynamically 10 of the same 
vehicles that the agency testified statically, with just a 
pushing on the roof, and we found dramatic differences. And 
we've submitted that to the agency.
    In ejection, there are 54,000 people ejected every year in 
passenger vehicle crashes.That's just horrific. And it's a 
terrible experience to be ejected from a vehicle in the course 
of a roll. And there are 7,300 deaths annually from this and, 
as I said, horrible injuries.
    I would like to turn to the unfinished agenda. And I would 
like to say to my friend from the Alliance of Motor Vehicle 
Manufacturers that the issues that we have raised before 
Congress and asked you to issue mandates for are the agency's 
priorities. It's just that they haven't happened, and so that's 
the reason that we have pushed to get some deadlines for their 
activity.
    Pedestrians and bicyclists are the forgotten victims of 
motor vehicle crashes. There are more than 5,300 deaths each 
year in this regard. And we want to encourage adults to leave 
their cars at home, we want to encourage kids to walk and ride 
on their bikes, but we don't want them to be dead as a result 
of doing that.
    So in recent years NHTSA has considered this. It issued a 
global technical regulation that addresses pedestrian safety 
impact, but it is an exceptionally weak regulation. And, 
unfortunately, the work that has been done abroad in Europe--
and particularly in Japan, and by Honda, particularly, is one 
of the companies that's concerned about this--have really done 
a lot to improve the exterior protection of the vehicle. And 
believe it or not, there are lots of things you can do. You may 
not think so, but when a pedestrian is hit, there are lots of 
things you can do to mitigate the likelihood of death and 
injury.
    I was really interested to read, actually, that there is a 
company that has invented an exterior airbag that goes around 
the windshield area. So if you hit a pedestrian, they land on 
the airbag rather than landing on the harsh windshield and 
metal parts of the car.
    And also the Japanese and their new car assessment program, 
which is the program which tests vehicles and evaluates them, 
have introduced some pedestrian head injury requirements and 
tests for that as well. So it is clear that we are lagging 
behind, and it is something that we need to come to grips with.
    Also, there is another issue, which is compatibility of 
vehicles, the small vehicles and large vehicles and ones of 
very different weight. The agency has been working on this for 
some time but has not done very much, and it is a clear issue 
where you could reduce deaths and injuries. So we are hoping 
that the committee will certainly consider that issue.
    And then there is the issue of motor----
    Mr. Rush. Ms. Claybrook.
    Ms. Claybrook. Am I running out of time?
    Mr. Rush. Yes. You ran out of time a few minutes ago. I am 
just enthralled by your testimony, but I have to be fair to the 
other witnesses, so would you please summarize?
    Ms. Claybrook. Well, motor coach safety, which you've heard 
from the National Transportation and Safety Board is a crucial 
issue, and there have been terrible crashes, lots of 
recommendations to the agency. And we hope that because there 
are a lot of safety standards that apply to vehicles but not to 
motor coaches that the committee will talk a look at that and 
enhance that. And there is legislation pending that we hope you 
might incorporate into your report.
    I would just say the last thing is that EOBR is the 
electronic onboard recorders, and the EDRs, which are like the 
black boxes, the event data recorders, are very important on 
these vehicles as well as large trucks; and they also could 
address an issue that was raised by other witnesses here, which 
is data. They would give us great data that is very hard to 
collect and very expensive to collect, and this would make it 
much cheaper and much easier to do.
    So thank you so much. I hope that the budget of the agency 
will also be increased as you do this. We endorse the $40 
million even more for increasing the data----
    [The prepared statement of Ms. Claybrook follows:]

    [GRAPHIC] [TIFF OMITTED] T2888A.049
    
    [GRAPHIC] [TIFF OMITTED] T2888A.050
    
    [GRAPHIC] [TIFF OMITTED] T2888A.051
    
    [GRAPHIC] [TIFF OMITTED] T2888A.052
    
    [GRAPHIC] [TIFF OMITTED] T2888A.053
    
    [GRAPHIC] [TIFF OMITTED] T2888A.054
    
    [GRAPHIC] [TIFF OMITTED] T2888A.055
    
    [GRAPHIC] [TIFF OMITTED] T2888A.056
    
    [GRAPHIC] [TIFF OMITTED] T2888A.057
    
    [GRAPHIC] [TIFF OMITTED] T2888A.058
    
    [GRAPHIC] [TIFF OMITTED] T2888A.059
    
    [GRAPHIC] [TIFF OMITTED] T2888A.060
    
    [GRAPHIC] [TIFF OMITTED] T2888A.061
    
    [GRAPHIC] [TIFF OMITTED] T2888A.062
    
    [GRAPHIC] [TIFF OMITTED] T2888A.063
    
    [GRAPHIC] [TIFF OMITTED] T2888A.064
    
    [GRAPHIC] [TIFF OMITTED] T2888A.065
    
    [GRAPHIC] [TIFF OMITTED] T2888A.066
    
    [GRAPHIC] [TIFF OMITTED] T2888A.067
    
    [GRAPHIC] [TIFF OMITTED] T2888A.068
    
    [GRAPHIC] [TIFF OMITTED] T2888A.069
    
    [GRAPHIC] [TIFF OMITTED] T2888A.070
    
    Mr. Rush. Thank you very much.
    Ms. Fennell, you are recognized for 5 minutes, thereabouts.

                  STATEMENT OF JANETTE FENNELL

    Ms. Fennell. Mr. Chairman, members of the subcommittee, 
good afternoon. My name is Janette Fennell, and I am the 
Founder and President of the national nonprofit organization 
KidsAndCars.org. We are an agency dedicated to improving the 
safety of children in and around motor vehicles.
    I wish to thank you and the members of the subcommittee for 
inviting me to appear before you today to testify on the 
important issue of child safety.
    I come here today because enacting sound policy will save 
the lives of thousands of people each year but in particular to 
express our views on the issue of transportation as it relates 
to children.
    I would like to share a bit of my background with you so 
you can better understand why I personally have dedicated my 
life to the issue of vehicle safety.
    My family and I were victims of a trunk entrapment incident 
in 1995. My husband and I were ordered at gunpoint to get into 
the trunk of our car while our 9-month-old son was asleep in 
his car seat. We were taken in the trunk of our car to a remote 
area where we were abducted, where we were robbed, assaulted, 
and left to die. Miraculously, we were able to escape the 
confines of the trunk only to find our son was no longer in the 
back seat of our car. Fortunately, our son was found outside of 
our home in his car seat unharmed. We worked extremely hard to 
ensure car trunks were escapable from that moment forward.
    A Federal regulation was written that requires all motor 
vehicles beginning with model year 2002 to have a 
phosphorescent truck release handle inside the trunk of a 
vehicle. Since the implementation of this regulation, there has 
not been one, not one fatal trunk entrapment incident in a 
vehicle that has this escape mechanism. So please never doubt 
the importance of the significance of the interventions 
implemented by this committee. I can tell you this small change 
has saved countless lives.
    The fundamental idea I would like to communicate today is 
that children, mechanically, psychologically and socially, are 
not small adults. Therefore, their special, unique, and 
specific needs deserve to be examined and dealt with in a 
manner different than that from the adult population.
    Vehicles are designed for the average-size adult male. 
Children's size and relative proportions vary greatly 
throughout the pediatric age range and are very different from 
the average size of an adult man.
    Unfortunately, children are an afterthought during the 
vehicle design process. Children are an afterthought when we 
figure out how to safely transport them in vehicles. Children 
are an afterthought, and that is why we have so many troubles 
securing them safely. Don't get me wrong. We have made 
tremendous progress. But a piecemeal approach means that things 
have to be done and redone constantly. It's almost impossible 
to keep up with. But, yet, motor vehicle injuries are still the 
leading cause of deaths and acquired disability for children 
after the age of one in the United States. Many of these deaths 
can be prevented.
    I have provided a summary of statistics in my written 
testimony, so I won't use this precious time to go over them 
again. But, needless to say, any way you look at these numbers, 
children are being injured and killed at unacceptably high 
rates.
    There are many transportation issues related to children. I 
will only highlight a few.
    The first one is the progress of the Cameron Gulbransen 
Kids Transportation Safety Act. NHTSA has done an excellent job 
meeting the deadlines prescribed in the Act and published its 
first report utilizing the virtual system about incidents that 
take place off our public roads or highways. The Not-in-Traffic 
Surveillance system reported in January an overall annual 
estimate of over 1,700 fatalities and 841,000 injuries. As 
evidenced by these significant numbers, these issues just added 
to the overall toll of deaths and injury dealing with motor 
vehicles in this country. These numbers are all in addition to 
any statistics quoted today by any panel member.
    Power windows, how are we doing there? It's a decades-old 
convenience feature that most drivers take for granted. 
Millions of parents use them every day but few know the dangers 
these devices can have to children when they're not equipped 
with the proper safeguards.
    Power windows have repeatedly been the instruments of death 
and/or serious physical injury to children and others. How much 
pressure can a power window exert? These excessively 
overpowered windows exert 50 to 80 pounds of pressure and have 
enough power to lift and strangle a child between the glass and 
upper window frame.
    Ninety percent of vehicles on the road in Europe are 
equipped with the power window auto-reverse feature, and many 
times these are the same vehicles that are sold in America 
without that feature. Are European children more precious than 
American children? I think not. If you purchase a Ford Focus in 
Europe, auto-reverse power windows are a standard feature. If 
you purchase a Ford Focus here, not only does it not have an 
auto-reversing feature, you can't even get that as an option.
    These deaths are 100 percent preventable. After four 
decades of deaths and dismemberment, we need a final rule. Just 
like trunk entrapment, let's eliminate this as a cause of death 
in our country.
    Rear visibility. In March, NHTSA published an Advanced 
Notice of Proposed Rule Making regarding rear visibility, and 
excellent comments have been submitted to the docket. It's 
imperative for NHTSA to keep focused on reducing the blind zone 
behind our vehicles, because at least 50 children are backed 
over in this country every week. Forty-eight of those children 
end up in hospital emergency rooms, but at least two children 
die. I cannot emphasize enough that in over 70 percent of these 
incidents it is a direct family member who is responsible for 
the death of that child. Said a different way, the people who 
love them the most are suddenly responsible for their death, 
and that's a burden no one should have to carry for the rest of 
their lives.
    We would like to see rear seatbelt reminder systems. The 
importance of seatbelts in saving lives is indisputable. We 
should do everything possible to get people to buckle up. 
Seatbelt reminder systems should be available for all 
designating seating positions to remind the driver and each 
passenger to buckle up their seatbelt.
    On August 28, 2007, safety groups filed a petition with 
NHTSA requiring that seatbelt reminder systems be required in 
the rear seats and in the second and third row of seats in 
multipurpose passenger vehicles, including minivans and sport 
utility vehicles. Though NHTSA is required to respond to 
petitions within 120 days, the agency has not yet responded to 
this petition. I submit the 2007 petition to my testimony, as 
it cites multiple studies and provides every justification 
needed to move quickly on this proposal.
    The top reasons we need rear seatbelt reminders are: 
requiring seatbelt reminders would save hundreds of lives each 
year, a large percentage of which would be children. Multiple 
studies have proven that rear seatbelt use would increase 
significantly if rear seatbelt reminders were required. 
Government, industry, and safety groups all agree seatbelts 
save lives.
    The reminder systems, once they're in place, to put your 
seatbelt on could very easily help people to be reminded if a 
child is left alone in a vehicle. There was a riveting article 
called ``Fatal Distraction'' that was published in the 
Washington Post Magazine in March of this year. The author, 
Gene Weingarten, did a phenomenal job bringing together the 
many complicated and misunderstood reasons how children can be 
inadvertently left alone in a hot car and why these unthinkable 
deaths continue to happen. He explains how our brain and memory 
function and how lack of sleep and stress can change in the 
routine and have devastating consequences. And it conveys a 
powerful message and tells a heartbreaking story of how parents 
have lost young children so tragically. I submit this article 
to the record.
    [The information follows the prepared statement of Ms. 
Fennell.]
    Ms. Fennell. As we all remember, during the 1980s there 
were many reports caused by airbags to children. The airbag 
campaign changed forever how Americans transport their children 
in motor vehicles, and we know that a child is safer in the 
back seat. But today we are suffering an unintended consequence 
of moving children to the back seat.
    Is that the 5 minutes?
    Mr. Rush. Ms. Fennell, your remarks have been quite 
interesting.
    Ms. Fennell. Please refer to my written testimony for other 
important announcements.
    [The prepared statement of Ms. Fennell follows:]

    [GRAPHIC] [TIFF OMITTED] T2888A.071
    
    [GRAPHIC] [TIFF OMITTED] T2888A.072
    
    [GRAPHIC] [TIFF OMITTED] T2888A.073
    
    [GRAPHIC] [TIFF OMITTED] T2888A.074
    
    [GRAPHIC] [TIFF OMITTED] T2888A.075
    
    [GRAPHIC] [TIFF OMITTED] T2888A.076
    
    [GRAPHIC] [TIFF OMITTED] T2888A.077
    
    [GRAPHIC] [TIFF OMITTED] T2888A.078
    
    [GRAPHIC] [TIFF OMITTED] T2888A.079
    
    [GRAPHIC] [TIFF OMITTED] T2888A.080
    
    [GRAPHIC] [TIFF OMITTED] T2888A.081
    
    [GRAPHIC] [TIFF OMITTED] T2888A.082
    
    [GRAPHIC] [TIFF OMITTED] T2888A.083
    
    [GRAPHIC] [TIFF OMITTED] T2888A.084
    
    [GRAPHIC] [TIFF OMITTED] T2888A.085
    
    [GRAPHIC] [TIFF OMITTED] T2888A.086
    
    [GRAPHIC] [TIFF OMITTED] T2888A.087
    
    [GRAPHIC] [TIFF OMITTED] T2888A.088
    
    [GRAPHIC] [TIFF OMITTED] T2888A.089
    
    [GRAPHIC] [TIFF OMITTED] T2888A.090
    
    [GRAPHIC] [TIFF OMITTED] T2888A.091
    
    [GRAPHIC] [TIFF OMITTED] T2888A.092
    
    [GRAPHIC] [TIFF OMITTED] T2888A.093
    
    [GRAPHIC] [TIFF OMITTED] T2888A.094
    
    [GRAPHIC] [TIFF OMITTED] T2888A.095
    
    [GRAPHIC] [TIFF OMITTED] T2888A.096
    
    [GRAPHIC] [TIFF OMITTED] T2888A.097
    
    [GRAPHIC] [TIFF OMITTED] T2888A.098
    
    [GRAPHIC] [TIFF OMITTED] T2888A.099
    
    [GRAPHIC] [TIFF OMITTED] T2888A.100
    
    [GRAPHIC] [TIFF OMITTED] T2888A.101
    
    Mr. Rush. Thank you so very much.
    Dr. Runge, you are a very patient man.
    Dr. Runge. Mr. Chairman, I'd like the balance of their 
time, if that's oK.
    Mr. Rush. You are recognized for your 5 minutes and 
thereabouts.

              STATEMENT OF JEFFREY W. RUNGE, M.D.

    Dr. Runge. You're very charitable. Thanks.
    I do have a more exhaustive written testimony that I've 
submitted for the record, with your permission.
    I also, like these people on the panel, have devoted my 
life to road safety, first as an emergency physician, teaching 
in a residency program in North Carolina, culminating with my 4 
years as administrator. I have been away for about 3 years 
working on issues of Homeland Security, but it's a pleasure to 
be back.
    I want to take a little bit different tack here with you 
all because I would like to ask you do something that you 
haven't been doing, and that is, NHTSA's safety programs come 
out of grant funding that has been funded through the Highway 
Trust Fund. But I would like you to consider, Mr. Chairman, 
that motor vehicle safety is inextricably linked to health care 
and that you can't have a discussion about health care in this 
country without recognizing the importance of road safety. It 
is inextricably linked to the well-being of our society. We 
love the autonomy and the mobility that it provides us, but 
there's is a tax on that privilege.
    We've made strong gains in belt usage. We've made some 
gains in impaired driving, but we are still a long way from 
where we need to be. Certainly, there's more to do in making 
motorcycle transportation safer; and we need better support 
from this committee for our emergency medical services systems 
across the country.
    Now I understand that you are dealing basically with 
NHTSA's organization of vehicle safety programs, but I would 
like to appeal to you to take a little bit more activist role 
in the safety programs which have been funded out of the 
Highway Safety Trust Fund.
    You can't talk about the cost of health care without 
talking about the cost of road traffic injuries. Once a crash 
has occurred, its victims are then part of the health care 
system. They are picked by the EMS. They go through expensive 
acute care, through expensive rehabilitation. There are work 
loss days, there is disability, and the Nation's productivity 
suffers.
    America has invested in prevention programs and safer 
vehicles, but this investment still pales in comparison to 
other investments for other illnesses. So I believe that 
Congress should take the opportunity to be motivated by the 
opportunity for health care cost savings and reprioritize crash 
injury and its economic burden on society.
    We did a study in 2003 looking at health care cost burden 
in the year 2000. The health care cost alone would be $40 
billion in today's health care dollars. This is a disease in 
which prevention works, and prevention is essential.
    As Congress looks everywhere that it can for savings across 
the health care system, I would urge you to consider the value 
of lowering that number through data-driven prevention 
programs. Decreasing the cost of vehicle-related trauma should 
be as important a consideration for you as the discussions 
around changes in the vehicle.
    I would like to address a couple of issues dealing directly 
with the vehicle safety program and their important adjuncts.
    First of all, safety belt use. We did make great strides in 
belt use, about 10 full percentage points during my time at 
NHTSA thanks to the nationwide Click it or Ticket program, 
which we estimate saved about 3,000 lives a year. But the fact 
that they are still only 50 percent effective in preventing 
fatality has been a vexing problem for me for a long time, and 
I would like to echo Ms. Claybrook on this. Shouldn't a belt be 
required to perform as well in a rollover crash as it does for 
frontal impact? Should belt pretentioners be mandatory in every 
vehicle?
    So, Mr. Chairman, I would like to advocate turning up the 
research pace on safety belt design and acceptability, 
wearability and comfort. It's still the best vaccine we've got 
against this particular type of illness.
    Secondly, I would like the committee to support whatever we 
can do with vehicle technology to reduce alcohol-impaired 
driving. Like folks at the Alliance, I believe that the time 
has come for technology to be part of this tool kit. But I 
think that Congress should really step in with some incentives 
for car companies who step up to the plate.
    I can tell you--and Mr. Strassburger probably can't say 
because he represents them all--but we've seen evidence of 
corporation responsibility in certain of the companies in 
various areas, but it's very difficult for one of them to step 
up to the plate and introduce a new technology because it puts 
them at a potentially competitive disadvantage. So if there is 
any way, Mr. Chairman, that you could recommend building 
incentives in for these new technologies--and I would ask you 
to start with alcohol detection technology--I think it would be 
a really great thing for this country.
    I am very happy about our side-impact tests. We now have a 
regulation in place which we think will save about a thousand 
lives a year. And I am very happy that the agency finally 
issued the rule on electronic stability control, which does 
level the playing field for all the manufacturers in the 
country to deliver this also lifesaving technology. These are 
two examples of technology which save thousands of lives.
    And I don't want to diminish any activity that would help 
children or would solve the problem of dozens or scores of 
people. That would be inappropriate. But I do want to call your 
attention to the fact that this is pretty much a zero sum game 
for the agency. At their current level of funding and their 
current rulemaking agenda, I asked them, when I was 
administrator, to tackle the big stuff first.
    I actually sympathize with the committee and did associate 
somewhat with your holding them to task to get things done on 
time. I think that timelines, although nobody likes them, are 
necessary for us all to get our work done. But I would 
encourage you to require the agency also to demonstrate that 
that regulatory agenda is data-driven, is generated by public 
participation, and is a good value for the dollar spent. And I 
would encourage you to hold them accountable for their 
regulatory agenda, for their timelines, and for the automakers 
as well not to petition for delays and delays and delays. I do 
believe that we perform better when we are a little bit under 
the timeline gun.
    And then, finally, I would ask you to consider two things 
that are probably even more outrageous than getting 
jurisdiction over the grant programs; and that is I would like 
you to consider how to build in incentives for automakers to 
bring in new crash-avoidance technologies, that they wouldn't 
do just one company at a time.
    I remember in 2005 GM announced that they were going to put 
electronic stability control in all of their SUVs by 2009. I 
thought that was a big deal. That's millions of vehicles. Other 
manufacturers had already done that without the fanfare. But it 
was important that the companies that stepped up, that the 
vehicles don't cost another $300 than the vehicle down the 
street.
    If we are going to have these technologies in, we really do 
need a playing field. But before we can get rules out the 
door--which sometimes takes years--incentives could be put in 
place which incentivize manufacturers to do things earlier, 
even before the rules come out. I know that's outrageous, but I 
think it's worthy of consideration.
    And then, finally, your Cash-for-Clunkers program, which is 
being talked about in Congress right now for fuel economy, Mr. 
Chairman, these little clunkers, many of them are not very 
safe. I would love to see families with marginal incomes be 
incentivized to be able to go out and buy a--get out of their 
two-star-rated rollover SUV that they're hauling their kids 
around in with a high center of gravity and get into a new 
crossover vehicle with a low CG, with better crash performance, 
and side curtain airbags.That, to me, would be a benefit for 
society well above anything that we could get for cars that 
have marginal better CAFE standards.
    So with that, I will stop. I know this committee has a lot 
on its plate. You're worried about carbon out. I am very 
pleased that the Insurance Institute is taking my position, and 
one that I helped pioneer, that we shouldn't have to give up 
the safety of our children to save gas. I do believe that 
manufacturers can do both. They can make safer vehicles that 
provide better fuel economy if they're given the flexibility to 
do so.
    Thank you very much.
    [The prepared statement of Dr. Runge follows:]

    [GRAPHIC] [TIFF OMITTED] T2888A.102
    
    [GRAPHIC] [TIFF OMITTED] T2888A.103
    
    [GRAPHIC] [TIFF OMITTED] T2888A.104
    
    [GRAPHIC] [TIFF OMITTED] T2888A.105
    
    [GRAPHIC] [TIFF OMITTED] T2888A.106
    
    [GRAPHIC] [TIFF OMITTED] T2888A.107
    
    [GRAPHIC] [TIFF OMITTED] T2888A.108
    
    [GRAPHIC] [TIFF OMITTED] T2888A.109
    
    Mr. Rush. Well, the Chair really thanks all the witnesses 
for your very invigorating and interesting testimony. The Chair 
feels inspired by the testimony of this panel of witnesses. 
Unlike the previous panel that appeared before the 
subcommittee, you really made some remarkable and provocative 
commentary and suggestions; and the Chair really wants to 
commit himself and the subcommittee to look at each and every 
one of your recommendations.
    I recognize myself for 5 minutes for questioning.
    I asked questions of the first panel about the relationship 
between Congress and NHTSA, and I noted that Congress has 
stopped trusting NHTSA to issue needed safety standards in a 
timely manner and begin mandating timelines for NHTSA to issue 
standards that have otherwise been delayed or ignored. And each 
one of you please respond--some of you have already responded, 
but if you want to elaborate on this relationship, I want to 
know, is this relationship repairable? Will we ever be able to 
rely on NHTSA to issue necessary safety standards in a timely 
manner without intervention from the Congress, congressional 
mandates? And how do we get there?
    Would you care to respond, Mr. Strassburger? And just go 
down the line.
    Mr. Strassburger. Thank you, Mr. Chairman.
    It was actually Dr. Runge, when he was NHTSA administrator, 
published what I believe was the first priority plan for the 
agency; and I think, as we heard from the first panel this 
afternoon, that that was a very valuable tool to the agency. It 
was also a very valuable tool to the industry as well. It 
signaled a direction that we needed to go in. It allowed us to 
begin making product decisions, research decisions, planning 
decisions in advance of rulemaking. And I think it's, in part, 
the reason why we're seeing the implementation of advanced 
technology well in advance of any mandate to do so.
    And it's exactly for all of those reasons that I have 
recommended that the agency adopt that practice--that you 
direct the agency to adopt that practice on an ongoing basis. 
They should develop that priority plan. It should ensure that 
we're spending the resources to get the maximum ``bang for the 
buck''--to quote Ron Medford--and it is an excellent tool for 
you to exercise oversight over the agency. But it also signals 
a direction for all of us to follow.
    Mr. Oesch. Thank you very much, Mr. Chairman.
    I think it is very appropriate--in fact, it is the 
responsibility of Congress--to set the mandates for the agency 
to give them the broad directions that they should be working 
on.
    I think that Dr. Runge's point about everyone performs 
better when you have a timeline, but I also think that it's 
important--we do have a very talented staff at NHTSA; and if 
they're given the general directions, I think they will march 
in the correct way to try and achieve the benefits that we all 
want to have.
    And one of the things that has dramatically changed, 
certainly in my experience--I first became involved in highway 
safety in the 1970s, and at that time the motor vehicle 
industry and the insurance industry, aided by consumers, were 
at loggerheads on the issue of airbags.
    What's happened now is that we now have the vehicle 
manufacturers that are implementing technologies far quicker 
than they are mandated by the Federal rules, for example, the 
side-impact airbags provide head protection. There isn't a 
Federal rule--or there wasn't until recently a Federal rule 
that had those in place. In part, those are coming about--I 
would like to take some credit for the work of the Insurance 
Institute for Highway Safety. We have our own test program that 
has promoted the development of that technology.
    But, beyond that, I think there are many steps that the 
manufacturers are voluntarily taking because they recognize now 
safety sells, and they want to be able to compete in the 
marketplace. We see that in our own affairs in that we have 
what we call our ``top safety pick,'' and that is your car has 
to do good in our frontal test, good in our side test, good in 
our rear test, and it has to have electronic stability control. 
Next year, we will also put in a requirement that it has to do 
well in our roof crash test. The manufacturers are actually 
coming to us and asking for us to test vehicles to get that top 
safety pick rating, because they know that it will help them in 
the marketplace.
    So, again, yes, it is entirely appropriate for Congress to 
set the general mandates, but I do think that, with the change 
in the attitude among the vehicle manufacturers, that we will 
see much more movement voluntarily towards achieving many of 
these goals.
    Thank you, sir.
    Mr. Rush. Ms. Claybrook.
    Ms. Claybrook. Thank you very much, Mr. Chairman.
    I have been a strong advocate since the early 1990s of the 
Congress setting deadlines for the agency to act because there 
was such a large backlog of unattended-to matters. And the 
Congress has done that, and it has made a huge difference.
    On the other hand, I also started, when I was at the 
National Highway Traffic Safety Administration in the late 
1970s, something called NCAP, the New Car Assessment Program. 
What that does is provide consumer information for 
manufacturers who exceed the standards, because the NCAP test 
is five miles an hour higher than the standard. So those 
manufacturers who stood out then got kudos for doing that; and 
the Insurance Institute for Highway Safety, with its own design 
test, has also enhanced that as well.
    So I certainly do believe that public information works, 
but the problem is that most people don't have this 
information. So in the 2005 law there was a provision put in 
that requires this information to be on the price sticker. So 
now the consumer is getting that information--they're not 
getting the Insurance Institute information, but they are 
getting the test information from the National Highway Traffic 
Safety Administration, and we have actually made some 
recommendations to the agency to improve that program and make 
it easier for people to understand. So I agree with all that.
    But I will say that there were decades where, for example, 
in roof crush--a great area--where, with the onset of SUVs, the 
number of deaths and rollovers just zoomed up and the agency 
didn't act. And the roof crush standard then at issue was in 
1971, and it hadn't been improved yet all these years. And, 
finally, in 2005, the Congress said enough is enough, and 
you're going to have to take some action.
    On the motor coach area, the NTSB has made these great 
recommendations, and they've been ignored for years and years 
and years. And the most recent evaluation--I don't think it was 
mentioned as clearly in the testimony--the NHTSA said that the 
agency, NHTSA, was responsible for some of the deaths in these 
cashes because it had refused to take any action.
    And the last thing I would say is on voluntary standards. I 
do think that voluntary standards are confusing to the public. 
I think the manufacturers have, for example, undertook a 
compatibility voluntary standard. They never finished it, and 
it kind of disappeared. And the problem is is that some 
manufacturers will comply, some won't. No one knows which ones 
do, which ones don't.
    I do think that if there's a need for a standard, it ought 
to be one that the public can participate in as the Federal 
Government considers it and issues it, and then everyone 
complies. It's a minimum standard. It's not a maximum standard. 
It's a minimum standard. And so if the companies want to do 
better, as Honda is doing with pedestrian safety, then they 
can, and they can boast about it. But I think that the 
standards ought to be for all cars.
    Mr. Rush. It seems that my time is ending.
    The Chair recognizes the ranking member for 5 minutes for 
questioning the witnesses.
    Mr. Radanovich. Thank you, Mr. Chairman.
    Dr. Runge, thanks--as well as to everybody--for being here 
for the testimony today.
    You mentioned, Doctor, that this committee should have a 
more direct role in the jurisdiction of safety grant programs, 
which I'm not clear I understand why you're recommending that. 
But it would seem to me, too, that the committee that has 
within its jurisdiction the setting of CAFE standards also 
ought to be considering automobile safety as well. Is that the 
point that you are making, or it is a different one as well?
    Dr. Runge. That actually is one of the points. I'm a little 
bit biased here because of my relationships with getting 
certain things done on the Hill. This committee, I think, has a 
very comprehensive view of the job of motor vehicle safety and 
separating the grant programs, having--let me step back a 
second.
    I actually was very grateful only to have two really strong 
committees of jurisdiction in the House of Representatives. In 
Homeland Security, I had 89. So it's a lot better over here.
    But, nonetheless, I think you have health care reform on 
your plate, you have health care costs on your plate, you have 
CAFE on your plate. You can't really separate safety belts, 
impaired driving, primary safety belt law, incentive grants, 
EMS grants, traffic records grants--which go to the States to 
have better information come into the NHTSA so that the vehicle 
safety regulations can have a good foundation. It actually just 
makes sense for some shared jurisdiction here among these 
different programs. At least that's one man's opinion.
    Mr. Radanovich. Thank you.
    Can you tell me which, in your opinion, would have the most 
immediate impact on reducing driver fatalities? Would it be 
behavioral changes, technology improvements, or improved driver 
ed and skill requirements?
    Dr. Runge. I think all of those are important, sir. 
Unquestionably, the largest delta to be gained right now is by 
increasing safety belt use, still. We still have 15 States that 
have secondary enforcement laws. We saw gains in our impaired 
driving numbers because of increases in safety belt use.
    So a continuation of the--I think it's the 406 RAMP 
program, which incentivizes States to pass primary belt laws, 
and I said in my written testimony--and I know this may seem 
heretical from a Republican, but I think it's time that we 
consider a progression to a sanction similar to what Congress 
did with the .08 law. It just provides some top cover for State 
legislators to do the right thing, and I think we've seen 
evidence where that would be needed.
    Mr. Radanovich. Behavioral changes.
    Dr. Runge. Behavioral changes would be, by far, the largest 
delta. Although the others are important. And I do believe that 
educating people on how to drive and enforcement of laws about 
how they drive is important to make sure the operator can 
actually operate the safe vehicle.
    Mr. Radanovich. Thank you.
    Mr. Strassburger, on the issue of CAFE mandates, how do you 
think--if those are increased, how do you deal with the safety 
mandates that might be accommodated with it?
    Mr. Strassburger. Well, the CAFE mandates have been 
increased. The way they have been dealt with is the way in 
which was described here, with an attribute-based system that 
provides a disincentive for downsizing or down-weighting 
vehicles; and that was the system that we have endorsed as the 
Alliance to preserve safety while enhancing motor vehicle 
efficiency.
    Mr. Radanovich. Thank you.
    Mr. Oesch, I do have a question. The Auto Manufacturers 
Fund and the Insurance Institute for Highway Safety----
    Mr. Oesch. It's the auto insurer, sir.
    Mr. Radanovich. I'm sorry. The Auto Manufacturers Fund, the 
Insurance Institute for Highway Safety. Am I right?
    Mr. Oesch. No. We are funded exclusively by automobile 
insurers. We do not receive any Federal monies; we do not 
receive any moneys from the automobile insurers.
    Mr. Radanovich. Got it. Well, the Auto Alliance and the 
Insurance Institute voluntarily agreed to improve vehicle 
compatibility in 2005 and filed such an agreement with NHTSA. 
Why weren't those Bumpers-for-Life trucks part of the 
agreement?
    Mr. Oesch. This is covered in my written testimony; and 
you've raised a very, very good point. Because we have a 
situation where the existing bumper standard only applies to 
passenger cars. There is no requirement for SUVs. There is no 
requirement for pick-up trucks. There is no requirement for 
vans. So, clearly, one of the things that we could do that 
would certainly eliminate a lot of unnecessary property damage 
in low-speed collisions is to require a uniform bumper height 
for those classes of vehicles. It would also have a safety 
benefit as well to try and assure that the structure of the 
vehicles match better in the event of an impact.
    One of the things that did come out of that voluntary 
agreement is that manufacturers did agree on the larger 
vehicles--the SUVs and the pick-up trucks--to add some 
additional structure lower than their existing bumpers to try 
and ensure that uniformity. But, clearly, if we had a mandated 
bumper standard for all vehicles to ensure a uniform height, 
that would help both for property damage as well as for safety.
    Mr. Radanovich. Thank you very much.
    I yield back, Mr. Chairman.
    Dr. Runge. May I make a comment on that as well, just to 
get it on the record, Mr. Chairman?
    I just want to make sure that the committee understands 
that the Federal Motor Vehicle Safety Act is probably a 
misnomer. It should be the Federal People Who Operate Motor 
Vehicles and Ride in Them Safety Act. It's not really there to 
deal with property damage.
    Now, this is the Consumer Protection Subcommittee, and I 
think that if you wanted to look at those additional mandates 
for the agency, accompanied by the authorities and the 
appropriations, it might be appropriate then to venture into 
this area. But when NHTSA sets its regulatory agenda, it looks 
at fatalities and injuries, not necessarily at property damage. 
And it may cost $3,000 for a fender-bender, which is 
unfortunate and could be, certainly, done better; and certainly 
in the eyes of the insurance industry that's not the agency's 
mandate. So just please keep that this mind.
    Secondly, it's not about the bumper height. It's about the 
places where the force is delivered vehicle to vehicle, not 
necessarily the bumper. The bumper is there for property damage 
control and to let you know that you've hit something.
    Ms. Claybrook. Mr. Chairman, if I could just comment on 
that. There is a separate statute that NHTSA does administer 
dealing with property damage and that deals with bumpers. Dr. 
Runge is correct, that what you want to have is the cell of the 
vehicle be the thing that's impacted, not just the bumper. So I 
agree with that. But there is an opportunity for property 
damage.
    Mr. Rush. The Chair recognizes now the gentleman from 
Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman.
    I apologize for coming as late as I did to the hearing; and 
I apologize to the panelists, although I did get to hear a 
little bit of the testimony on television before I came over.
    I have two sort of conceptual questions, and I invite 
anybody to answer them.
    The first is, of course, right now, the auto industry in 
this country is undergoing a radical transformation which we 
are viewing primarily through the lens of sort of fuel 
efficiency standards and those kinds of things, with great 
expectations that what will emerge from this period of 
transition will be something that kind of gets us on the 
cutting edge.
    And what I was curious about is whether you view an 
opportunity in this--and if this has been asked, I apologize--
but whether you view a similar kind of opportunity in this 
retrenchment that's going on, this remaking of the industry 
with respect to safety standards and perhaps, you know, 
consolidating a bunch of safety issues that have accumulated 
over time where there is now a chance to kind of push forward 
in a quantum way. So is there anything about this transitional 
period that you see as offering opportunities?
    You might, alternatively, tell me that it actually poses 
new challenges for the kinds of progress you are trying to see 
made. But I would like to put it in that context and see what 
you have to say.
    Ms. Claybrook. Well, I'm sure the Alliance would like to 
come in on this. They probably know more about the cost issues.
    But I do think that when vehicles are being dramatically 
redesigned, that's the greatest opportunity, designed-in 
safety. And what we're talking about here is designed-in 
safety. And in terms of, for example, roof crush and ejection 
from the automobile, where 10,500 people are killed every year, 
that's not a big technology cost. It's really a design issue: a 
little bit more strength in the roof, a priority on the A 
pillar over the windshield and not just the B pillar, and so 
on. So you can really make some dramatic improvements.
    There is also an opportunity to improve the belts. Belts 
are not tested for rollover. You could do that.
    There is an opportunity to put in some of the child safety 
things that are very small in terms of just reminders for the 
rear seat. Today, the reminders are only for front-seat 
passengers.
    So there are a lot of issues to adjust, small things that 
could be incorporated into this dramatic redesign that's going 
on for safety and fuel economy and also in the crush protection 
of the vehicle and in the compatibility of these vehicles 
because we're not going to have the same kind of differential 
with SUVs and cars. So as we redesign these vehicles, we can 
think forward about the compatibility of these vehicles. So 
that's why we would like to see a standard.
    Dr. Runge. As another former administrator--I'm a has-been. 
I don't speak for the agency. But I can tell you that what 
you've raised here does raise a formidable challenge for the 
agency, and that is that vehicles have essentially become 
electronic systems. A lot of the rules don't apply.
    In the year 2002, I suggested that we needed a quadrennial 
review of all the rules to make sure that when we talk about 
bulbs that it recognized the fact that they were LEDs and this 
sort of thing. That quadrennial review turned into a 7-year 
review for reasons that are beyond the scope of this 
discussion. It is important, but it is a very difficult thing 
for an agency that is fully employed to take this additional 
endeavor on.
    I never said when I was administrator that the agency 
didn't have enough money to do its work. But the fact is is 
that Ms. Claybrook had--what--1,100 people or so to do this 
work. I had 600. And so it is a zero sum game for the agency. 
And if they are to step back and take a more comprehensive 
view, there is a certain cycle of activity that's going on 
every day just focusing on the regulatory agenda. To step back 
and take a larger view would really require additional 
resources, but I do think it's a very valuable question.
    Mr. Strassburger. If I could, please. Obviously, the agency 
should have adequate resources to do its job, but there is no 
higher priority among Alliance members than to reinvent the 
automobile to make it cleaner, safer, and more efficient. And 
that's where we are investing our effort, and the results show 
every day. There are a number of things that we are doing 
voluntarily to improve the product and improve safety 
performance. And I would argue that the marketplace is only now 
catching up with its demands for more efficient vehicles to the 
demands that have been there already for the last 10 years or 
more for safer vehicles.
    So the real challenge is you're going to get a lot of input 
here today and as you go forward as to how to reauthorize the 
agency. And I keep coming back to the fact that the agency is 
well equipped to evaluate and vet, prioritize all the 
suggestions that you are going to get and set a priority plan 
and set the direction for the country; and I think that's 
really the best way to proceed.
    Mr. Sarbanes. Well, part of the reason I asked the question 
was to sort of scold myself. Because I realize that, given the 
other issues that the larger committee has jurisdiction over, 
I've gotten myself very focused on this sort of fuel economy 
dimension of this dramatic transition that is occurring. But, 
clearly, the safety and other elements are as important if 
we're going to have a strategic approach and an efficient 
response to this opportunity that's presented.
    So I appreciate the response. Thank you.
    Dr. Runge. One follow-up, too, sir. I think that the agency 
is concerned about what are the effects of these more fuel--I 
avoid the word ``efficiency'' because you can have a very 
efficient big light truck. But vehicles that have greater fuel 
economy, we're starting to see a lot of these small, sporty, 
nice-looking, consumer-attractive vehicles coming into the 
marketplace. And I think the agency and engineers and certainly 
the folks in the industry are concerned about the crash pulse 
from these very--what are probably going to be stiffer vehicles 
coming onto the marketplace.
    Every time you do something good, it seems like there's a 
Newtonian opposite effect; and I think that the agency is 
really struggling and grappling to try to figure out what those 
engineering tradeoffs are, as I know that the industry and 
safety folks are as well. And I appreciate your attention to 
that. It's very important as the committee talks about what the 
agency should do, keep in mind that they have to deal with 
these tradeoffs just constantly.
    Ms. Claybrook. I would say there is one other tradeoff, if 
I could, Mr. Chairman, and that is the question about whether 
or not there is any relationship between the huge amount of 
money that's being invested in the industry and any kind of 
payback, if you would, from the industry by adopting these 
requests as opposed to opposing them.
    Because often there is a disagreement in the rulemaking 
process; and that's one of the reasons it takes such a long 
time, is that the industry has been resistant to a lot of this. 
And some companies have bounced ahead, some have resisted on 
different standards, different ways. But I do think that there 
ought to be more of a nexus between the money that's going into 
the industry and these public needs.
    Dr. Runge. One quick follow-up. I have found out that 
sometimes all you got to do is ask. The belt reminders that 
people are talking about, the things that drive you crazy in 
your car if you don't buckle up--and I know some of you are 
guilty--were put in there because I asked them to do it. I knew 
that a rule would take God knows how long and that we would get 
petitioned up the wazoo. And I just said, look, would you guys 
just do this? And they said, yes, we think we can work that 
out. And they did it.
    So the thing that drives you nuts if you don't buckle your 
belt is not a mandate. It's something that they agreed to do 
because we asked them. And some of these other things that are 
not on the regulatory agenda but on the agenda of our advocate 
friends actually may be done if they work together.
    Mr. Oesch. Could I add one point to that? This is something 
that actually is directly within Congress' power. That is, back 
in 1974, Congress put a limit on the length of time that a belt 
reminder could be sound within a vehicle. It can't sound more 
than 8 seconds. And just as Dr. Runge was referring to, we've 
done research of the systems that the manufacturers have 
voluntarily installed that have longer signals and that we have 
found that those have been very effective in increasing the 
belt usage. So there is an impediment, if you will, to the 
agency being able to require those because of congressional 
legislation. So it's certainly something that you may wish to 
consider.
    Mr. Rush. Thank you.
    Ms. Claybrook. It was in 2005 that this got eliminated.
    Mr. Rush. Thank you very much. The Chair will entertain the 
second round of questioning and recognize himself for another 
one additional question. Each member will receive one 
additional question.
    Dr. Runge and Mr. Oesch, and Ms. Fennell, your recent 
comments really is a perfect segue to the question that I have, 
and that is whether or not there is any anti-driver distraction 
technology that exists? I was on my way to the airport for this 
hearing and the lady that was in the car in front of me was 
driving as she was applying her makeup, and there are so many 
examples of individuals on cell phones and text messaging and a 
whole array of different things that are distracting. Is there 
something that we can do or the industry could look at to 
remind people that you're taking your life in your hand? You 
look pretty good without the makeup. So, you know, is there 
something that could be--some kind of technology that could be 
utilized or implemented?
    Mr. Oesch. There certainly--one way to approach this is 
through the enactment of State laws that ban the use, for 
example, of cell phones or texting while driving. And we're 
seeing more and more jurisdictions that have begun to take 
those steps.
    But one of the keys to that, and this also goes to belt 
usage and why we had laws on the books for a number of years 
but it was only at the point at which we began high visibility 
enforcement of those laws that we began to see the seatbelt 
usage rise. Just like in this instance, if States but the laws 
on the books, for example, on cell phone use or texting, they 
also have to ensure then that there is active enforcement of 
those laws. Otherwise it's not going to have much effect.
    Dr. Runge. If I could echo that, Mr. Chairman, this boils 
down to the cop on the beat, you know. We can make the safest 
vehicle in the world, we can do anything we need to do, 
essentially it is the operator that determines whether or not a 
crash occurs. So enforcement of traffic laws is extremely 
important, and I think again I get back to these grant 
programs. You know, we got permission from the Congress to use, 
I believe it was $80 million of grant funds to soup up the 
enforcement for safety belt use by getting money to the States 
to do certain things, including providing saturation patrols 
for traffic enforcement. That has beneficial effects way beyond 
safety belts and impaired driving. These enforcement 
opportunities. We get the data every year and it turns out they 
find people with outstanding warrants, they find fugitives, 
they find--this really is criminal law enforcement. Traffic 
safety is criminal law enforcement. Most of the interface with 
the police and the public occurs through traffic stops, and 
they catch a lot of bad guys doing this.
    So I think the Congress has to continue to support the 
funding that NHTSA gives to States to enhance traffic 
enforcement. It is really a critical thing.
    Ms. Claybrook. Maybe what we could have some technology 
that every time you take one hand off the wheel then it buzzes 
in your ear. So there are--I'm not suggesting we do that, but 
I'm suggesting that's a possibility of some kind of 
technological response to--because it is very, very difficult. 
It is very difficult for the police to enforce the law when we 
are talking about putting on lipstick or talking on a cell 
phone.
    Mr. Rush. A voice reminder or recording.
    Ms. Claybrook. It could be if you take both hands on the 
wheel you get a little voice reminder that says watch out.
    I would like to correct the record for one second, and that 
is that as much as I admire Dr. Runge he is not the first 
person who issued a safety plan for the agency. The first ones 
were issued many years before Dr. Strassburger--Mr. 
Strassburger got involved and included by myself. I have issued 
one every year, but so did the agency every year back in the 
early seventies.
    Mr. Rush. The ranking member suggested that we were 
thinking along the same lines. So I asked this question so he 
doesn't have any additional questions.
    The Chair recognizes the gentleman from Maryland for one 
additional question.
    Mr. Sarbanes. Can I follow up on your question before I ask 
that other question or make a comment? I find that the barrier 
to this issue of improving safety with respect to the use of 
cell phones is not the talking part of it; it is the dialing 
part of it. So it just occurs to me from a technology 
standpoint, you know, we may want to move to where cars come 
already equipped with voice activated opportunity to make 
calls, because--and maybe that's already underway, but you're 
fighting a losing--I mean, people know they can't have 
something in their hand when they come into the District, but 
at some point they've got to dial the thing if they haven't got 
a voice activated technology in place. And cars could provide 
that, I would imagine, right?
    Ms. Claybrook. Well, the research shows it is the use of 
your brain.
    Mr. Sarbanes. Well, OK. Fair enough.
    Ms. Claybrook. But you could slightly reduce it by allowing 
for automatic dialing.
    Mr. Sarbanes. But at least the visual disconnect that 
happens when--I'm giving away too much of my own driving habits 
here, clearly. The observation I just wanted to make was the 
struggle must be with respect to these safety issues to evolve 
to a kind of strategic approach over time, and I know there's 
so many episodic things that occur, you know, litigation, high 
profile accidents, other things that push the industry and the 
agencies that regulate the industry in different directions. 
And navigating that while maintaining a strategic approach over 
time that kind of builds on the safety measures that have 
already been developed must be a challenge, with funding 
concerns only adding to the task. But I imagine that's the goal 
that we all seek and hopefully in this reauth we will be able 
to achieve more of that.
    So thank you all very much.
    Mr. Rush. The Chair really thanks this panel of witnesses. 
Again, you have been very, very helpful to us to guide us along 
our way for reauthorization. Your commentary and ideas and 
suggestions will be taken seriously by this Chair and by the 
subcommittee, and we look forward to working with you again.
    I want to also really reiterate my expression to you that 
we are so grateful to you for taking your time out from your 
busy schedule to be with us today, and we want to let you know 
that our time for questioning has concluded and so you are 
respectfully dismissed from the witness table there.
    The Chair, before he adjourns this committee, asks for 
unanimous consent to enter into the record a statement 
submitted by the Mothers Against Drunk Driving. And also there 
have been some extraneous materials, including articles and 
reports that were brought to this committee by Ms. Fennell, and 
the Chair asks for unanimous consent that these and any other 
extraneous material be submitted into the record.
    Hearing no objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. Thank you very much, and it has been a pleasure 
working with you.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T2888A.110
    
    [GRAPHIC] [TIFF OMITTED] T2888A.111
    
    [GRAPHIC] [TIFF OMITTED] T2888A.112
    
    [GRAPHIC] [TIFF OMITTED] T2888A.113
    
    [GRAPHIC] [TIFF OMITTED] T2888A.114
    
    [GRAPHIC] [TIFF OMITTED] T2888A.115
    
    [GRAPHIC] [TIFF OMITTED] T2888A.116
    
    [GRAPHIC] [TIFF OMITTED] T2888A.117
    
    [GRAPHIC] [TIFF OMITTED] T2888A.118
    
    [GRAPHIC] [TIFF OMITTED] T2888A.119
    
    [GRAPHIC] [TIFF OMITTED] T2888A.120
    
    [GRAPHIC] [TIFF OMITTED] T2888A.121
    
    [GRAPHIC] [TIFF OMITTED] T2888A.122
    
    [GRAPHIC] [TIFF OMITTED] T2888A.123
    
    [GRAPHIC] [TIFF OMITTED] T2888A.124
    
    [GRAPHIC] [TIFF OMITTED] T2888A.125
    
    [GRAPHIC] [TIFF OMITTED] T2888A.126
    
    [GRAPHIC] [TIFF OMITTED] T2888A.127
    
    [GRAPHIC] [TIFF OMITTED] T2888A.128
    
    [GRAPHIC] [TIFF OMITTED] T2888A.129
    
    [GRAPHIC] [TIFF OMITTED] T2888A.130
    
    [GRAPHIC] [TIFF OMITTED] T2888A.131
    
    [GRAPHIC] [TIFF OMITTED] T2888A.132
    
    [GRAPHIC] [TIFF OMITTED] T2888A.133
    
    [GRAPHIC] [TIFF OMITTED] T2888A.134
    
    [GRAPHIC] [TIFF OMITTED] T2888A.135
    
    [GRAPHIC] [TIFF OMITTED] T2888A.136
    
    [GRAPHIC] [TIFF OMITTED] T2888A.137
    
    [GRAPHIC] [TIFF OMITTED] T2888A.138
    
    [GRAPHIC] [TIFF OMITTED] T2888A.139
    
    [GRAPHIC] [TIFF OMITTED] T2888A.140
    
    [GRAPHIC] [TIFF OMITTED] T2888A.141
    
    [GRAPHIC] [TIFF OMITTED] T2888A.142
    
    [GRAPHIC] [TIFF OMITTED] T2888A.143
    
    [GRAPHIC] [TIFF OMITTED] T2888A.144
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
